<html>
<title> - SYRIA: THE CRISIS AND ITS IMPLICATIONS</title>
<body><pre>[Senate Hearing 112-472]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-472
 
                 SYRIA: THE CRISIS AND ITS IMPLICATIONS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
75-019                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Feltman, Hon. Jeffrey D., Assistant Secretary of State For near 
  Eastern Affairs, U.S. Department of State, Washington, DC......     5
    Prepared statement...........................................     6
Ford, Hon. Robert, U.S. Ambassador to the Syrian Arab Republic, 
  U.S. Department of State, Washington, DC.......................    12
    Prepared statement...........................................     6
Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1
Lugar, Hon. Richard G., U.S. Senator From Indiana................     3


              Additional Material Submitted for the Record

Responses of Assistant Secretary Jeffrey Feltman and Ambassador 
  Robert Ford to Questions Submitted by Senator John F. Kerry....    34
Responses of Assistant Secretary Jeffrey Feltman to Questions 
  Submitted by Senator James E. Risch............................    36
Responses of Ambassador Robert Ford to Questions Submitted by 
  Senator James E. Risch.........................................    37
Responses of Assistant Secretary Jeffrey Feltman and Ambassador 
  Robert Ford to Questions Submitted by Senator Jeanne Shaheen...    38
Response of Assistant Secretary Jeffrey Feltman to Question 
  Submitted by Senator Christopher Coons.........................    39
Responses of Ambassador Robert Ford to Questions Submitted by 
  Senator Christopher Coons......................................    40

                                 (iii)

  


                 SYRIA: THE CRISIS AND ITS IMPLICATIONS

                              ----------                              


                        THURSDAY, MARCH 1, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Webb, 
Coons, Durbin, Udall, Lugar, Corker, Risch, Rubio, and Isakson.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Thank you all. I apologize for being a moment late. I was 
over on the floor and a little bit delayed there, and I will 
have to go back there at some point in time. Senator Casey will 
chair at the point at which I will have to do that.
    We appreciate everybody coming here to discuss the ongoing 
situation in Syria.
    As we all know, Syria sits in the heart of the Middle East, 
straddling its ethnic and sectarian faultlines, and all of the 
region's important powers have a direct interest in what 
happens in Syria, as do nonstate actors like Hezbollah, Hamas, 
and others.
    Al-Qaeda, through its affiliate in Iraq, appears to be 
trying to take advantage of the unrest, chaos, if you want to 
call it that, which is no surprise. Already as many as 9,000 
civilians have died, and many tens of thousands more have been 
displaced from their homes. In the Syrian City of Homs, there 
has been indiscriminate shelling for 3 weeks now. Hundreds have 
died and the city is running critically low on food and medical 
supplies.
    Given the indiscriminate killing of its own citizens and 
given its back of the hand to the global community, as well as 
to the regional powers that have tried to intervene, it seems 
clear that the Assad regime is ultimately going to fall. But 
the longer the end game, the messier the aftermath and 
obviously the more complicated the in-between. The prospect of 
a full-fledged sectarian civil war is a stark reminder that a 
terrible situation could become still much worse with 
potentially devastating consequences for neighbors, Israel, 
Lebanon, Jordan, and adverse implications for the broader 
Middle East.
    So the question being asked here in the Congress, as well 
as elsewhere in America and in the world, is where do we go 
from here. America may have little direct leverage on Syria, 
but the recent Friends of Syria conference in Tunis was an 
important moment that could galvanize the international 
community against the Assad government, and none of us should 
ever underestimate the ability of the global community to have 
an impact on any renegade regime anywhere in the world when the 
full attention and focus of the global community is properly 
convened.
    The last year has shown that when the world acts with one 
voice, motivated by the cause of freedom, a tyrant's grip on 
power does not seem so fierce. That is why the Russian and 
Chinese veto at the United Nations Security Council was, in 
fact, so disappointing because it actually extended to Assad a 
political lifeline to continue to use violence against his own 
people. We need to encourage the Russians and the Chinese and 
certainly let them know that while we would like their positive 
involvement in putting a halt to the conflict, we are able to 
do, and prepared to do, much more if they continue to block all 
progress at the Security Council.
    The Arab League and GCC have ramped up their political and 
economic pressure. The EU and Turkey--Turkey, interestingly 
enough, just a year ago, a close friend and supporter of 
Syria--have broken and done the same. The U.N. General Assembly 
in recent weeks voted 137 to 12 to condemn the crackdown. Two 
weeks ago, the Senate passed unanimously a resolution 
introduced by this committee condemning the regime for its 
brutal crackdown and expressing solidarity with the Syrian 
people.
    There are still serious questions about various opposition 
organizations, including especially the Syrian National Council 
and Free Syrian Army. They share the goal of getting rid of 
Assad, and they have traveled some distance in the course of 
the last year. But they have not yet unified in the way that 
the Libyan Transitional National Council did.
    So I believe it is time for us to redouble our efforts to 
engage with Syria's political opposition to try to shape their 
thinking, to understand it more fully, to identify more fully 
the leadership to strongly encourage them to coalesce into a 
coherent political force.
    With the creation of the Friends of Syria group, there is 
now a multilateral mechanism for supporting the Syrian National 
Council and other political groups with technical assistance. 
But it is true that many Syrians themselves remain on the 
fence, especially members of the Alawite, Christian, and other 
minority groups. They are horrified by the regime's atrocities 
but they are also terrified by the potential for broad-scale 
sectarian strife.
    Thus, it is absolutely vital that the SNC do everything it 
can to unify politically, to put national aspirations ahead of 
personal ambitions, to categorically reject radicalism, and to 
reassure religious and ethnic minorities that they will enjoy 
full freedoms in a tolerant and pluralist post-Assad society. 
The nascent Syrian opposition needs to understand that the 
international community's political support will ultimately be 
contingent upon their ability to speak with one voice that 
represents the full diversity of Syrian society and also 
embraces the values that will bring the global community to its 
side.
    A debate has started in Congress and in the region about 
whether and, if so, how to support the Free Syrian Army. It is 
critical that we all proceed with extreme caution and with our 
eyes wide open. There are serious questions to be answered 
about the Free Syrian Army, but it is not too soon to think 
about how the international community could shape its thinking 
or encourage restraint. We should encourage the Free Syrian 
Army to subsume itself under the leadership of Syria's 
political opposition.
    Finally, we are all deeply concerned about the disposition 
of Syria's biological and chemical weapons and its lethal 
conventional weapons systems. I know that the administration is 
fully engaged with respect to this particular challenge and is 
working diligently to make sure that there are contingencies to 
prevent these weapons from falling into the wrong hands, and I 
would urge all of my colleagues to be fully supportive of those 
efforts.
    To help us work through the complexities of this 
situation--and I want to emphasize this is not Libya, this is 
not Egypt, this is not Tunis, this is a far more complicated 
and difficult proposition. But to help us work through those 
complexities today we are joined by two of the most talented 
and accomplished members of America's diplomatic corps. I am 
pleased to welcome Assistant Secretary of State for Near 
Eastern Affairs, Jeff Feltman, and former United States 
Ambassador to Syria, Robert Ford. I should say Ambassador but 
not currently in-country.
    Secretary Feltman knows the region well, and having served 
as Ambassador to Lebanon, I think he understands as well as 
anybody the full implications this crisis could have.
    Ambassador Ford has worked tirelessly to engage with the 
people of Syria during his tenure. And Ambassador, I think we 
all want to commend you on your courageous and important 
efforts that you made to distinguish between sort of the 
clientitis that sometimes can embrace those abroad and your own 
connection to the values that you represented. I think we all 
were very impressed by that.
    Ambassador Ford had to leave the country once in October 
because of threats to his own safety, but he returned and he 
continued his efforts until the Embassy finally had to close 
last month because of the continued deterioration in security.
    So we thank you both in advance for providing your insights 
and look forward to your testimony.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming Assistant Secretary Feltman and 
Ambassador Ford to this committee. We do appreciate their 
leadership as events in Syria have proceeded.
    Ambassador Ford and his team on the ground in Syria deserve 
great credit for documenting evidence of the Syrian 
Government's aggression against its people, despite substantial 
personal risk.
    Our hearing today takes place amidst the deadly violence, 
the gross human rights violations, and degradations that the 
Assad regime continues to inflict on the Syrian people. Since 
our last hearing on Syria in November, the death toll in this 
11-month conflict has risen dramatically. We are confronted by 
horrific images of the depths to which Assad will go to 
preserve his power, including targeting civilians, journalists, 
doctors, aid workers and women and children.
    I welcomed the meeting in Tunis last week of the Friends of 
the Syrian People that brought together 60 nations and 
international organizations. We should continue to focus 
attention on humanitarian needs in Syria. The absence of Russia 
and China from the meeting was an abrogation of their 
responsibilities in my judgment as permanent members of the 
United Nations Security Council.
    Events in Syria will impact United States national security 
and the interests of our close ally Israel. The outcome in 
Syria will have deep implications for the internal politics of 
neighboring countries, ethnic conflicts in the Middle East, and 
broader strategic issues. Terrorist groups are likely to 
attempt to take advantage of political instability, and 
intersectarian violence could spill over Syria's borders as 
groups settle old scores or defend brethren from attacks.
    In the midst of this upheaval, we know Syria has 
substantial stockpiles of chemical and conventional weapons 
that could directly threaten peace and stability throughout the 
region. Our Government must be focusing intelligence and 
counterproliferation assets on containing this threat.
    The development of a definable opposition that speaks for 
most Syrians would improve chances that the damage to the 
Syrian people and risks to regional stability could be 
contained. Some constructive opposition voices are attempting 
to emerge. But at present, the Syrian opposition lacks cohesion 
and a sufficiently defined political agenda. As a practical 
matter, it also lacks the physical space and technical means to 
mature, overcome its internal differences, and develop a plan 
for a democratic transition. Deep sectarian divisions, outside 
influences from Iran and elsewhere, and the lack of a 
democratic political culture weigh heavily against the short-
term emergence of a unified opposition on which to base a 
tolerant democracy.
    This presents the United States with limited options. 
Clearly, we must oppose the Assad regime's aggression against 
its own people and support international humanitarian efforts. 
We should also work with willing states to limit any spillover 
effect generated by violence in Syria. But we should not 
overestimate our influence to shape events in the country. 
Further, attempts by the United States or the West to closely 
manage the opposition could backfire in an environment where 
the government blames outside influences for Syria's troubles.
    While not taking any options off the table, we should be 
extremely skeptical about actions that could commit the United 
States to a military intervention in Syria. Under the 
constitution, any decision placing us as a party to armed 
conflict in Syria rests with the Congress. As you and others in 
the administration consider a way forward together with our 
international partners, I encourage you to work closely with 
Congress as plans evolve, particularly as the situation becomes 
more complex.
    I look forward to your testimony very much and we are 
honored that you are with us today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Mr. Secretary, if you would lead off and then Ambassador 
Ford. Thank you very much. Your full testimony will be placed 
in the record as if read in full.

 STATEMENT OF HON. JEFFREY D. FELTMAN, ASSISTANT SECRETARY OF 
   STATE FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Feltman. Thank you, Mr. Chairman.
    Chairman Kerry, Ranking Member Lugar, distinguished members 
of the committee, thank you for holding this important hearing.
    I appeared before your regional subcommittee in November to 
discuss the crisis in Syria. And since that time, our European 
friends have joined us in sanctioning the Central Bank of 
Syria, impeding the financing of the regime's brutal crackdown. 
The EU has completed its implementation of its embargo on oil 
purchases from Syria, halting a third of Bashar's government 
revenues. The Arab League suspended Syria's membership with 
many Arab States downgrading diplomatic relations and freezing 
Syrian bank accounts. The Arab League put forth a political 
transition plan for Syria; 137 countries supported the U.N. 
General Assembly resolution condemning the Syrian regime's 
violence and supporting the Arab League transition plan.
    More than 60 countries and institutions met in Tunis as 
Friends of the Syrian People to endorse the Arab transition 
plan, to demand an immediate end to the violence, and to commit 
to practical steps to address the Syrian crisis. The Syrian 
opposition in Tunis articulated a clear, credible transition 
plan, and addressed minority fears directly and convincingly.
    We announced $10 million in immediate humanitarian 
assistance, with millions more from other countries.
    The U.N., the Arab League, have appointed a joint high-
profile envoy, Kofi Annan, with a mandate from the Arab League 
initiative and the U.N. General Assembly resolution.
    And just this morning, the U.N. Human Rights Council in 
Geneva overwhelmingly passed a strong resolution, which is the 
council's fourth, essentially describing the situation in Syria 
as a manmade humanitarian disaster. And we all know the 
identity of the man responsible for that disaster.
    Now, these are just some of the examples of regional and 
international resolve. But nevertheless, as both of you have 
described, we have also seen that the Assad regime has 
intensified its vicious campaign of attacks against the Syrian 
people. The situation is frankly horrific, including 
indiscriminate artillery fire against entire neighborhoods and 
today's reports from Homs are truly alarming. Large numbers of 
Syrians are living every day under siege, deprived of basic 
necessities, including food, clean water, and medical supplies. 
Women and children are wounded and dying for lack of treatment. 
Innocent people are detained and tortured and their families 
left to fear the worst.
    Yet, despite the regime's brutality, the people of Syria 
demonstrate enormous courage. Their determination to continue 
protesting for their rights, mostly still peaceful protests, is 
an inspiration and a testimony to the human spirit.
    Now, as Assistant Secretary of State for Near Eastern 
Affairs watching the upheavals in the Arab world, I am humble 
enough to say that we do not know for sure when the tipping 
point, the breaking point, will come in Syria but it will come. 
The demise of the Assad regime is inevitable. It is important 
that the tipping point for the regime be reached quickly 
because the longer the regime assaults the Syrian people, the 
greater the chances of all-out war and a failed state.
    All of the elements of United States policy toward Syria 
are channeled toward accelerating the arrival of that tipping 
point. As I referred to at the start, through the Friends of 
the Syrian People group, we are translating international 
consensus into action. We are galvanizing international 
partners to implement more effective sanctions and to deepen 
the regime's isolation. We are supporting the Arab League's and 
now the U.N. General Assembly's call for an immediate 
transition in Syria. We are moving ahead with humanitarian 
assistance for the Syrian people demanding that attacks cease 
and access be granted. And we are engaging with the Syrian 
opposition on their vision for Syria's future, a proud and 
democratic Syria that upholds the rights and responsibilities 
of all of its citizens regardless of their religion, their 
gender, or their ethnicity.
    Now, together we are working to persuade frightened 
communities inside Syria that their interests are best served 
by helping to build that better Syria, not by casting their lot 
with a losing regime, a corrupt and abusive regime which has 
been a malignant blight in the Middle East for far too long. 
The goal of the opposition and the Friends of the Syrian People 
alike is as follows: a Syrian-led political transition to a 
democratic government based on the rule of law and the will of 
the people with protection of minority rights.
    I would like to close my opening statement by echoing this 
committee's praise of my fellow witness and friend, Ambassador 
Robert Ford. Ambassador Ford's courageous actions on the ground 
in Syria these past months have been a great credit to him, to 
the Foreign Service, and to the United States. He repeatedly 
put himself in harm's way to make it clear that the United 
States stands with the people of Syria and their dream of a 
better future. And I want to thank this committee for its 
leadership in supporting his confirmation.
    [The prepared statement of Ambassador Feltman follows:]

  Joint Prepared Statement of Hon. Jeffrey D. Feltman and Hon. Robert 
                                  Ford

    Chairman Kerry, Ranking Member Lugar, distinguished members of the 
committee, thank you for inviting us to appear before you today to 
discuss our goals with regard to Syria and our strategy for achieving 
them.
    Much has changed since Assistant Secretary of State Feltman's 
testimony to the Subcommittee on Near Eastern and South and Central 
Asian Affairs on November 9, 2011, and regrettably, on the ground in 
Syria, things have largely changed for the worse. Peaceful protests 
have continued, the opposition has become better organized and more 
capable both inside and outside Syria, the international community is 
now more united in its resolve to end the crisis, and the diplomatic 
and economic isolation of the Syrian regime has deepened, but the 
regime's criminal brutality against the Syrian people has only 
intensified, especially in the wake of the February 4 double-veto in 
the U.N. Security Council.
    The February 22 report of the U.N. Human Rights Council-sponsored 
Commission of Inquiry on Syria included a number of alarming findings:
  <bullet> The Syrian regime's forces have committed more widespread, 
        systematic, and gross human rights violations, amounting to 
        crimes against humanity, with 
        the apparent knowledge and consent of the highest levels of the 
        State. Antigovernment-armed groups have also committed abuses, 
        although not comparable in scale and organization to those 
        carried out by the State.
      We would add that, unlike the armed opposition, the Syrian 
        Government is carrying out attacks with tanks and heavy 
        artillery.
  <bullet> The army intensified its bombardment with heavy weapons--
        particularly in Homs--after the withdrawal of the League of 
        Arab States observers in late January. As a result, large 
        numbers of people, including many children, were killed. 
        Several areas were bombarded and then stormed by State forces, 
        which arrested, tortured, and summarily executed suspected 
        defectors and opposition activists.
  <bullet> Residential buildings in the Bab Amr neighborhood of Homs 
        were shelled by tanks and antiaircraft guns. State snipers also 
        shot at and killed unarmed men, women, and children. 
        Fragmentation mortar bombs were also fired into densely 
        populated neighborhoods.
  <bullet> Security agencies continued to systematically arrest wounded 
        patients in State hospitals and to interrogate them, often 
        using torture, about their supposed participation in opposition 
        demonstrations or armed activities. The commission documented 
        evidence that sections of Homs Military Hospital and Al 
        Ladhiquiyah State Hospital had been transformed into torture 
        centers. Security agents, in some cases joined by medical 
        staff, chained seriously injured patients to their beds, 
        electrocuted them, beat wounded parts of their body or denied 
        them medical attention and water. Medical personnel who did not 
        collaborate faced reprisals.
  <bullet> The military and security forces continued to impose 
        blockades on areas with a significant presence of 
        antigovernment-armed groups, including in Homs, Hama, Idlib, 
        and Rif Dimashq. Medicine, food, and other essential supplies 
        were not allowed to pass. State forces arbitrarily arrested and 
        assaulted individuals who tried to bring in such supplies. The 
        government also withheld fuel rations and the electricity 
        supply to punish communities and families whose members had 
        participated in antigovernment demonstrations.
  <bullet> Torture in places of detention continued. Victims and 
        witnesses provided credible and consistent accounts of places 
        and methods of torture.
  <bullet> Children continued to be arbitrarily arrested and tortured 
        while in detention.
  <bullet> The commission received credible and consistent evidence 
        identifying high- and mid-ranking members of the armed forces 
        who ordered their subordinates to shoot at unarmed protestors, 
        kill soldiers who refused to obey such orders, arrest persons 
        without cause, mistreat detained persons, and attack civilian 
        neighborhoods with indiscriminate tank and machine-gun fire.
  <bullet> On 20 December, local residents discovered the bodies of 74 
        defectors in a deserted area between Kafar Awid and Kasanfra. 
        Their hands had been tied behind their back and they appeared 
        to have been summarily executed.

    This litany of egregious human rights violations demands an 
international response, and it is outrageous that the U.N. Security 
Council has been repeatedly blocked from answering the calls of the 
Arab League and the pleas of the Syrian people. The United States and 
the broader international community are determined not to allow two 
members of the Security Council to prevent the pursuit of a political 
solution to the crisis in Syria and the provision of urgent assistance 
to the Syrian people. As demonstrated in the February 16 adoption by 
137 votes to 12 of a U.N. General Assembly resolution fully supporting 
the Arab League transition plan, and the outcomes of the February 24 
meeting of the Friends of the Syrian People Group, there is a growing 
chorus of condemnation from the international community that is gaining 
strength and unity of purpose.
    As Secretary Clinton said at the February 24 Friends meeting in 
Tunis, the Assad regime has ignored every warning, squandered every 
opportunity, and broken every agreement. But in Tunis on February 24, 
as it did in the U.N. General Assembly the week before, the 
international community spoke with one voice, joining in support of the 
Arab League's initiative, demanding an end to the Assad regime's 
brutality and the beginning of a democratic transition in Syria. The 
Friends meeting in Tunis marks a turning point for translating 
international consensus into action. Although different countries took 
different positions on foreign intervention and arming the opposition, 
there was unanimous condemnation of the human rights violations and 
crimes of the Assad regime. Subsequent Friends meetings, with the next 
scheduled for mid-March, will take stock of initiatives launched and 
engage in more detailed planning.
    The key outcomes of the February 24 Friends meeting were:

  <bullet> A massive outpouring of international support for Syrian 
        people and consensus that a political transition from tyranny 
        to democracy must begin now.
  <bullet> Recognition of the Syrian National Council (SNC) as a 
        legitimate representative of Syrians seeking a transition. The 
        SNC shared a credible vision for political transition and 
        directly addressed minority concerns.
  <bullet> Pledges of tens of millions of dollars in humanitarian 
        assistance, including $10 million from the United States.
  <bullet> A call on the Syrian Government to immediately cease all 
        violence and to allow safe, free, and unimpeded access by the 
        U.N. and other humanitarian organizations, clearly placing the 
        onus on the Syrian regime; and the creation of a working group 
        to coordinate international assistance, led by the U.N.
  <bullet> A firm commitment to contribute substantially to rebuilding 
        Syria in the process of transition and to support its future 
        economic recovery through the establishment of a working group 
        on economic recovery and development.
  <bullet> A strong affirmation of support for the naming of Kofi Annan 
        as a special envoy for both the U.N. and the Arab League to 
        advance a political solution reflecting the consensus behind 
        the Arab League transition plan and the U.N. General Assembly 
        resolution.

    The Friends Group echoed the Arab League's demands that the Syrian 
Government immediately halt all attacks against civilians; guarantee 
the freedom of peaceful demonstrations; release all arbitrarily 
detained citizens; return its military and security forces to their 
barracks; and allow full and unhindered access for monitors, 
humanitarian workers, and journalists.
    It fully supported the Arab League's call for a negotiated 
political solution to this crisis and an inclusive democratic 
transition to address the legitimate aspirations of Syria's people in 
an environment free from violence, fear, intimidation, and extremism. 
Only a genuine democratic transition will solve this crisis. The Arab 
League has set the goal of the formation of a national unity government 
followed by transparent and free elections under Arab and international 
supervision, and Assad's departure must be part of this. The United 
States and the other Friends of the Syrian People are firmly committed 
to the sovereignty, independence, national unity, and territorial 
integrity of Syria.
    We are taking concrete action along three lines: providing 
emergency humanitarian relief, ratcheting up pressure on the regime to 
hasten Assad's fall, and preparing for a democratic transition.
    Conditions in affected areas of Syria are dire and worsening. 
Emergency assistance is desperately needed, but the regime is doing 
everything it can to prevent aid from reaching those who need it most. 
It is attacking aid workers, doctors, and journalists reporting on the 
suffering. We deeply regret the deaths of all those who have fallen 
while trying to aid the Syrian people and get their story out to the 
world. We particularly regret the tragic loss of two American 
journalists, Anthony Shadid and Marie Colvin, the latter of whom gave 
her life to report on the horrors being perpetrated against the Syrian 
people.
    As an immediate response to the urgent need for humanitarian 
assistance, the United States is providing $10 million to quickly scale 
up humanitarian efforts, including support for displaced Syrians in 
Syria and in neighboring countries. These funds will help support 
emergency health activities, and get clean water, food, blankets, 
heaters, and hygiene kits to Syrian civilians in need. We will provide 
more humanitarian support in the days ahead. Trusted humanitarian 
organizations have prepositioned humanitarian supplies at hubs in the 
region, and they are already on the ground poised to distribute this 
aid as soon as safe access can be arranged. We are engaged in focused 
diplomatic efforts to secure such access.
    As to the second line of action, increasing the pressure on the 
Assad regime, it is time for more countries to impose sanctions on the 
regime and its supporters, as the United States, the European Union, 
and the Arab League have done--freezing assets, boycotting Syrian oil, 
suspending new investment, imposing travel bans, and reducing 
diplomatic ties. We welcome the EU's February 27 announcement of 
sanctions against the Syrian Central Bank, and we call on those states 
that are supplying weapons that the regime can use to kill civilians to 
halt immediately. For nations that have already imposed sanctions, we 
must work with these partners to help them enforce their sanctions 
vigorously and prevent the Syrian regime from evading those sanctions. 
The United States, through the Syria Accountability Act and a robust 
set of Executive orders issued by President Obama, already has a 
comprehensive toolkit of sanctions, which are being applied against the 
regime. We will continue to ratchet up the pressure on key groups and 
individuals by methodically and deliberately rolling out designations 
of additional individuals and entities, especially against those 
implicated in human rights violations, and preventing the Syrian regime 
from turning to other financial centers to conduct its activity.
    The United States, along with other countries around the world, has 
clearly stated that there must be an appropriate mechanism for 
accountability for those responsible for atrocities perpetrated in 
Syria. Noting that ``the Syrian people want justice, but what they want 
first and foremost is an end to the bloodshed,'' the Syrian National 
Council has called for the formation of a Truth and Reconciliation 
Committee. We strongly support the spirit of Senate Resolution 379, 
which condemns the regime's violent abuses of the Syrian people and 
urges the international community to review legal processes available 
to hold regime officials accountable.
    There should be no doubt that Assad's rule is unsustainable. It is 
being carried forward, for the time being, by the regime's strategy of 
unleashing brutality against civilians and stoking fears among Syria's 
various communities. Citizens inside and outside Syria have already 
begun planning for a democratic transition, from the leaders of the SNC 
to the grassroots Local Coordinating Committees and Revolutionary 
Councils across the country, which are organizing under the most 
dangerous and difficult circumstances. Supporting this process should 
be our third line of action.
    We have seen the SNC leadership articulate a compelling vision of 
the path Syria must take, in line with the Arab League's January 22 
plan that makes clear its intention to remove the regime while 
preserving the Syrian state and its institutions. As SNC President 
Burhan Ghalioun said in Tunis on February 24,

  <bullet> A national unity transitional government will be formed to 
        include leaders from the internal and external opposition and 
        political, military, and technocratic figures from the 
        government who have no complicity in crimes against the Syrian 
        people.
  <bullet> The transitional government will oversee the organization of 
        elections for a Constituent Assembly, which will draft a new 
        constitution based on parliamentary, pluralistic, and 
        democratic rule to ensure a civil state in Syria.
  <bullet> It will draft a political party law and a new election law 
        and oversee the holding of parliamentary and Presidential 
        elections to be held within a period to be defined (12 to 18 
        months).
  <bullet> State institutions, including both civil administration and 
        the armed forces, will be maintained but will undergo changes 
        to make them more transparent, accountable, and effective.

    Assad is tearing the fabric of Syrian society apart and seeking to 
pit community against community. To repair that damage and build a 
sustainable democracy, all Syrians will have to work together--Alawis 
and Christians, Sunnis and Druze, Arabs and Kurds--to ensure that the 
new Syria is governed by the rule of law and respects and protects the 
universal rights of every citizen, regardless of ethnicity, beliefs, 
religion, or gender.
    But as SNC President Burhan Ghalioun said in Tunis,

          What is happening today in Syria has nothing to do with a 
        conflict between a minority and a majority. Those who are 
        guilty of violating people's honor and trampling on their 
        rights, who kill their fellow countrymen and steal from them, 
        have no religion or ethics, and are not of us. They have no 
        humanity. And so I say to my fearful Alawite compatriots: You 
        are my brothers and sisters, and your unique role in rebuilding 
        the new Syria cannot be undertaken by anyone else, because it 
        is a right you have earned through your historic struggle for 
        Syria. No one has the right to hold you responsible for crimes 
        committed by the Assad-Makhlouf mafia. You are not responsible 
        for the actions of corrupt dictators. I say to my Christian 
        brothers and sisters: Many of you left your historic Syria in 
        the past in search of freedom and better opportunities. When 
        you left, a dearly held part of Syria died. The new Syria is no 
        longer merely a dream--it is within our reach, and we will work 
        together to ensure that each Christian who needed to leave can 
        return to the land of his or her forefathers. [To Syrian 
        Kurds:] The new Syria will have a decentralized government. 
        Your identity will be nationally recognized and respected and 
        your rights as citizens will be assured. [Post-Assad Syria] 
        will be a homeland for all its equal citizens, a democratic 
        civil state based on the rule of law and civil liberties in 
        which our citizenship transcends any social, ethnic, or 
        sectarian faction.

    We view the Syrian National Council as a leading and legitimate 
representative of Syrians seeking peaceful democratic change and as an 
effective representative for the Syrian people with governments and 
international organizations. The SNC has articulated a plan for the 
future, starting with an effective transition. Although the SNC still 
has weaknesses to remedy, it is by far the broadest, most inclusive, 
and most internationally visible of all the opposition groups. It is a 
necessary representative of the Syrian opposition to governments and 
international organizations. We will continue to work with the SNC and 
other nonviolent opposition groups and activists to help them build 
capacity and improve their communications. We urge the full range of 
opposition groups and individuals in Syria, including representatives 
of all ethnic and religious minorities, to come together around the 
SNC's vision for a peaceful and orderly transition. Only a genuine 
transition to democracy will solve this crisis.
    The United States and the other members of the Friends of the 
Syrian People Group are sending a strong message that the world will 
not tolerate the replacement of one form of tyranny with another. We 
will resolutely oppose acts of vengeance and retribution. We will 
support a managed transition that leads to a new Syria where the rights 
of every citizen are respected and protected.
    While we regret that it has been necessary to suspend operations at 
our Embassy in Damascus for security reasons, Ambassador Ford remains 
our Ambassador to Syria and its people, and our outreach to the Syrian 
people continues. Ambassador Ford is now leading our Syria team in 
Washington. We will continue to vigorously support the opposition and 
help it to build support among key groups inside and outside Syria. We 
must help the leaders of Syria's business community, military, and 
other institutions to recognize that their futures lie with a reformed 
Syrian state and not with a self-serving criminal regime that has no 
future.
    Inside the country, civilian-led revolutionary councils are 
becoming increasingly capable and influential. They play a number of 
key roles in besieged communities including provision of food and 
medical assistance, coordination of civilian protection, support to 
families of the fallen and detained, communications support, and basic 
governance. They are increasingly establishing effective civilian 
control over disparate armed opposition groups. Beyond supporting the 
revolution, these councils are filling the gaps left by a corrupt and 
self-serving government, which augurs well for the emergence of a 
robust and capable civil society in post-Assad Syria.
    All of the prominent opposition groups have dismissed the regime's 
February 26 referendum on amendments to the Syrian Constitution as a 
farce. While amending the Syrian Constitution to impose term limits 
(which would effectively allow Assad to serve two more 7-year terms) 
and end the Baath Party's monopoly on power may sound positive in 
principle, the opposition, understandably, has zero confidence that 
these are anything more than cynical cosmetic changes. Amendments to 
the constitution mean nothing as long as the regime continues to 
exhibit a blatant disregard for the rule of law. Moscow's championing 
of these so-called reforms as a means of addressing the concerns of the 
Syrian people is ridiculous.
    The recent call by Ayman al-Zawahiri for jihad in Syria and the 
sophisticated al-Qaeda-style car bomb and suicide vest attacks in 
Damascus and Aleppo are, of course, alarming. However, we assess that 
al-Qaeda has little political influence in Syria so far, and opposition 
voices in Syria have already explicitly rejected Zawahiri's statement. 
This remains essentially an organic, home-grown revolution supported by 
Syrians seeking a better life and a better future. Extremist elements, 
and foreign fighters in particular, still appear to have a relatively 
small role. We will continue to monitor extremist groups closely and 
work with our partners to disrupt flows of terrorist financing or 
foreign fighters.
    We will constantly evaluate what is happening inside Syria and 
adjust our approach accordingly. But before we consider additional 
measures, we should first try to implement fully what we agreed to in 
Tunis. The revolution in Syria unquestionably reflects many elements 
that we have seen in other Arab Spring revolutions, but the situation 
in Syria poses a unique set of challenges. Syria is home to a complex 
and potentially volatile mix of ethnic and religious communities. Syria 
sits at the middle of a complex web of relationships with other 
countries and actors in the region. Whereas military leaders in Tunisia 
and Egypt made a choice to stand with the people, this has not yet 
happened in Syria. While there was widespread support in the Security 
Council and the Arab League for intervention in Libya, no consensus 
exists regarding Syria.
    The United States role has largely been defined in terms of 
encouraging a peaceful transition by working to isolate the regime 
diplomatically, strangling its cash flow, and encouraging the 
opposition to unite around a platform of outreach to Syria's minorities 
and peaceful, orderly political transition. Moreover we have helped 
build an international coalition dedicated to these same goals and 
methods.
    We do not want to speculate about what might be warranted in the 
future. At this point, we do not believe that the further 
militarization of the situation is the best course. As Secretary 
Clinton has said, ``There is every possibility of a civil war. Outside 
intervention would not prevent that--it would probably expedite it. As 
you try to play out every possible scenario, there are a lot of bad 
ones that we are trying to assess.'' If the regime fails to accept the 
terms of political initiative outlined by the Arab League and end 
violence against citizens, we do not rule out any options. For now, we 
assess that a negotiated political solution is still possible and is 
the best way to end the bloodshed and achieve a peaceful transition to 
democracy, but as the Secretary said in London last week, ``There will 
be increasingly capable opposition forces. They will, from somewhere, 
somehow, find the means to defend themselves as well as begin offensive 
measures.''
    We regret that there is no simple or quick solution to this crisis. 
Assad remains focused on killing his own people, and for now, even if 
we thought it would be helpful to arm the opposition, it remains 
unclear exactly whom among the disparate and disjointed groups we would 
be arming or how effective this would be. While we believe the vast 
majority of those opposing the regime reject terrorism, it is troubling 
that Hamas and al-Qaeda both claim to support the opposition. 
Meanwhile, Russia and Iran, while they continue to criticize the rest 
of the international community for intruding into Syria's internal 
affairs, are intervening as enablers of the regime's butchery. Clearly 
we have long, hard work ahead of us.
    We are exploring urgently what is desirable and viable in the U.N. 
Security Council. We have discussed a number of ideas but it is 
premature to suggest there is any concrete course of action at this 
time. We continue to believe that it is long past time for the Council 
to act. The killing we are witnessing requires all countries to 
redouble their efforts. We must convince the Russian and Chinese 
Governments that they are currently setting themselves against the 
aspirations not only of the Syrian people but of the vast majority of 
the populations of the Middle East.
    Meanwhile, earlier this week we participated in an urgent debate at 
the U.N. Human Rights Council highlighting the ongoing gross violations 
of human rights and the Syrian Government's refusal to grant access by 
trusted humanitarian organizations to those Syrians most in need of 
medical support, food, and shelter. Today in Geneva, the Human Rights 
Council is expected to adopt an Arab-cosponsored resolution, with 
strong international support, condemning the regime's human rights 
violations and calling for a cessation of violence and unimpeded 
humanitarian access.
    We cannot predict exactly how the situation in Syria will unfold. 
While the military and security forces remain largely cohesive, 
especially the officer corps, we have seen thousands of desertions from 
the regular army. The army is under increasing strain from a high 
operational tempo and the challenges it confronts in dealing with local 
populations in the areas it is ordered to occupy. There is growing 
evidence that some of the officials in the Syrian Government are 
beginning to hedge their bets--moving assets, moving family members, 
looking for a possible exit strategy. We see a lot of developments that 
we think are pointing to pressure on Assad. We hope this pressure will 
lead him to make the right decision regarding humanitarian assistance 
and, ultimately, lead him to cede power voluntarily. But in the event 
that he continues to refuse, the pressure will continue to build, and 
sometime in the coming months there will be a breaking point. One way 
or another, this regime will meet its end, the sooner the better so 
that more lives can be saved.
    We want the Syrian people who are suffering so terribly to know 
that the international community has not underestimated either their 
suffering or their impatience, and we are moving in a resolute but 
deliberate manner. We also want those Syrians who are still uncertain 
about what would come after Assad to understand that we appreciate 
their concerns and fears, but a political transition that respects the 
rights of every Syrian and puts in place a democratic process will be, 
by far, the best outcome for them and their children. Along with the 
Syrian opposition, the Arab League, and the other Friends of the Syrian 
People, we will continue to reinforce this message.
    As President Obama said, ``The Syrian regime's policy of 
maintaining power by terrorizing its people only indicates its inherent 
weakness and inevitable collapse. Assad has no right to lead Syria and 
has lost all legitimacy with his people and the international 
community.'' No one should minimize the challenges Syrians will face 
after Assad, but the alternative is in no one's interests. Each day of 
repression and violence will make it more difficult for Syrians to 
reconcile, rebuild, and chart the new future that they deserve. The 
continued crackdown by the regime also increases the risk of sectarian 
conflict and chaos in the heart of the Middle East. We are redoubling 
our efforts, with our allies and friends, to relentlessly pursue these 
three tracks of delivering humanitarian relief, increasing pressure on 
the regime, and supporting democratic transition. We will continue to 
adjust our tools and tactics as necessary, to expedite the end of the 
Assad regime, so the Syrian people, with the support of the 
international community, are able to lead their country on a path to a 
more just, democratic, and prosperous future that supports stability 
and security in the region. When the regime meets its inevitable end 
via a peaceful, orderly transition or otherwise, the United States will 
be there to help Syrians reconcile, rebuild, and chart the new future 
that they deserve.

    The Chairman. Thank you very much, Mr. Secretary. We 
appreciate that.
    Ambassador Ford. Maybe you should not say anything. Just 
stop. [Laughter.]

 STATEMENT OF HON. ROBERT FORD, U.S. AMBASSADOR TO THE SYRIAN 
    ARAB REPUBLIC, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Ford. Senator, Mr. Chairman, and Ranking Member 
Lugar, Senators Casey, Cardin, Corker, thank you very much for 
this invitation to come and speak to the committee about Syria 
today.
    I do not want to do a long opening statement because I am 
hoping we can open discussion about Syria, but I would just 
like to say how much I appreciate this committee's support 
during my time in Damascus. Several times we got messages from 
members of the committee staff asking how we were doing and how 
my team was doing. I would just like to say that the team 
really appreciated those messages, especially during some of 
the tenser moments. It meant a great deal. I had a terrific 
team in Damascus, and I really would like just to thank this 
committee for your support for our efforts.
    Beyond that, I think the statement that Ambassador Feltman 
made is quite good and I will stop there.
    Thank you.
    The Chairman. Well, thank you very much, Mr. Ambassador. 
That does give us an opportunity to get a good dialogue, and we 
certainly appreciate it.
    Let me begin by asking both of you if you would share with 
us your perceptions of the state of the Assad regime itself 
right now. Are there any fissures? There have been some 
defections, not at the highest level, obviously. There have 
been some executions, we understand, of various military 
figures, maybe some others, as a deterrent to any plots or 
defection. What is your judgment about the current fragility, 
if it is indeed that at all, of an Alawite family enterprise 
that has a lot to lose, obviously?
    Ambassador Feltman. A couple of things I would say on that, 
Senator.
    First, the Assad regime is under greater stress now, I 
think, than it was even 2 or 3 months ago. This is in part 
because the military is more challenged. There has been a 
steady stream of desertions. The military has so far retained 
its cohesion. The security services have retained their 
cohesion, but they are under significantly more stress now in 
the first quarter of 2012 than they were, say, even as recently 
as 3 or 4 months ago.
    Within the ruling circle, if I may call it that, I think 
there is greater concern. They are aware that the business 
community, for example, is very unhappy. They have changed 
several times on a dime some of their economic policies to try 
to placate an increasingly unhappy business community which is 
suffering because of the sanctions that we have imposed, that 
Europe and now Arab countries have imposed. They are, I think, 
also concerned about their support on the street. So in 
general, I think they understand that this is the biggest 
challenge during the 40 years of the Assad-Makhlouf family's 
domination.
    The Chairman. Mr. Secretary, do you want to add anything? 
You do not have to. Do not feel compelled.
    Ambassador Feltman. Just to refer back to that tipping 
point, the breaking point that I talked about in my opening 
statement, because part of the region's and international 
community's calculation is to appeal to, as you talked about, 
Senator, those people who have not yet made up their minds to 
side with change but who do not like the direction in which 
Assad is taking them. So a lot of what you see coming out of 
meetings like the one in Tunis are ways to appeal to the 
broader Syrian population, as well as specifically targeting 
some members of the military and the business community, to try 
to move them toward change. A very important part of getting to 
that tipping point is getting more and more people on the side 
of change.
    The Chairman. Today's--I cannot remember which, whether it 
was the Post or the Times, but there was a photograph of the 
Kuwaiti Parliament having a vigorous debate and ultimately 
deciding to condemn the violence. There seems to be a somewhat 
surprising, unique if you will, movement in the GCC and among a 
number of Arab countries to really taking unprecedented--the 
Arab League taking unprecedented steps here. Could you speak to 
that and to what the potential is that within the Arab world 
itself here what the reactions may be, and therefore what 
potential there is for that to have an impact on the outcome?
    Ambassador Feltman. I think the Arab leadership on the 
issue of Syria has been remarkable. As I said in my opening 
statement, we are backing the Arab League's own transition 
plan. Syria sees itself as a major country in the Arab League. 
The Syrians call themselves the beating heart of the Arab 
world, and suddenly the Arab League has essentially suspended 
Syria's membership in the Arab League. This is not a North 
African country like Libya that is a little bit out of the Arab 
mainstream. It is significant what the Arabs are doing.
    Now, why is this happening? I think in part this is 
happening because of the Arab Spring. If you look at opinion 
poll after opinion poll, Bashar al-Assad is at the bottom of 
the list of popularity among Arab leaders. He has no 
credibility across the Arab world, and I think Arab leaders 
want to show their own populations that they get it, that they 
understand that they need to be in tune with Arab popular 
opinion.
    Without question, part of this has to do with the 
competition with Iran. People know that Bashar al-Assad has 
made Syria a proxy for Iran, a subservient partner to Iran, so 
part of this from the GCC is competition with Iran.
    But I would not underestimate the impact of the Arab Spring 
even on those Arab countries that are not going through 
transition. I believe that Arab leaders recognize that they 
cannot be on the complete opposite side of their public 
opinion, that the Kuwaitis, for example, would have seen this 
debate in the Kuwaiti Parliament yesterday.
    The Chairman. Mr. Secretary, based particularly on your 
experience in Lebanon and the region, share with us your 
perceptions of the risks of the ethnosectarian violence that 
could follow, I mean, if there is a total explosion or 
implosion, however you want to phrase it.
    Ambassador Feltman. Well, without question, the minorities 
in Syria look at Lebanon or more recently Iraq and they look at 
that with fear. And I think we all understand their fear, and I 
defer to Ambassador Ford to talk about the calculations inside 
Syria. But I think we all understand that fear. And so part of 
our challenge and particularly the challenge of the Syrian 
opposition is to disprove Bashar al-Assad's theory. It is his 
theory that says look at Lebanon, look at Iraq. That is where 
we are headed if you do not back me. And there is a real 
responsibility on the part of the Syrian National Council, the 
broader opposition groups, to show by word and by deed that 
that is, in fact, not where they have to go.
    The Chairman. What are the dynamics, if you would, between 
the Syrian National Council and the Free Syrian Army and the 
internal local groups, Mr. Ambassador?
    Ambassador Ford. Mr. Chairman, a couple of things I would 
say on that. The two organizations are separate. There is not a 
hierarchy between them. The Syrian National Council has its own 
executive body and then a broader general assembly.
    The Free Syrian Army, as best we understand, has its own 
leadership hierarchy. They are not organically linked. However, 
they certainly do talk to each other, and on the ground in 
Syria, local revolution councils are being set up now. If you 
watch, for example, Al Jazeera television, you will often see 
the spokesman for the Revolution Council in Homs talking about 
the atrocities that are going on there. It is a young man, a 
very brave man, named Abu Salah, who literally will go through 
the streets. It was he that broke the news about Marie Colvin's 
death, for example. People like Abu Salah talk to the Free 
Syrian Army but he is not Free Syrian Army.
    And so you mentioned in your statement, as did Senator 
Lugar, about the divisions within the Syrian opposition and 
there are different organizations. It makes it a little more 
complex. So they talk to each other. Sometimes they coordinate, 
but they are not organically linked.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    I just want to take up a point that you made, Secretary 
Feltman, about the European Union's embargo of Syrian oil 
exports and the success this initiative has yielded in terms of 
bottling up a high percentage of the government's income. Both 
this measure and other sanctions, including our own, against 
Syria have caused what seems to be, in normal terms, an 
economic depression in the country. This is likely to grow 
further.
    Are you aware of how much food is currently produced in 
Syria and what food supplies are available to the people of the 
country? We understand a drought has occurred this year. This 
was a critical factor clearly in Egypt. Even while things were 
going on in Tahrir Square, food subsidies had ceased and those 
in the countryside were not eating very well. This was a cause 
of considerable unrest.
    But even if there were these problems with the business 
community or with the moneys for the Assad regime, it would 
appear still, at least from press accounts, to the outside 
observer that the Alawites, who are certainly a minority at 10 
or 11 percent of the population may face an existential 
problem. Now, not all of the Alawites may be in favor of Assad, 
but there is, I think, general fear that their fate is likely 
to be very, very grim. As a matter of fact, there is not likely 
to be, as you called for, protection of minority rights.
    But I was interested in your prediction of a more 
accelerated turnover of the regime than most are predicting. 
Most press accounts that I have seen from various scholars 
indicate that the Assad regime might remain in power for 
several years rather than months, and that the lack of cohesion 
among the opposition could increase rather than diminish as 
more independent opposition groups enter the force.
    Can you comment generally on the critical problems of the 
present, including the economic depression and maybe dire food 
shortages that lead to general unrest, quite apart from the 
lack of cohesion among the opposition? Further, can we 
reasonably anticipate in any period within, say the next 3 to 5 
years, that there can conceivably be a transition to a 
government that is even tenuously democratic and compliant with 
international norms? The general prediction that I see among 
observers of this situation is that Assad might go, but the 
chaos that would ensue would be horrible with regard to the 
killing of people and the general melee. It is not a question 
then of choosing sides. It is a question of containing the 
disaster that has been created by the lack of authority.
    Ambassador Feltman. Senator Lugar, the dangers you point 
out are real. The opposition leadership recognizes those 
dangers. It is one of the reasons why I said our policies to 
try to accelerate the arrival of that tipping point--I do not 
know when the tipping point is going to come, and I would not 
even venture a guess. But I hope I did not make it sound as if 
it is coming tomorrow. I wish it were, but we do not have any 
magic bullets to make it come tomorrow. The longer this goes 
on, the deeper the sectarian divisions, the higher the risks of 
long-term sectarian conflict, the higher the risk of extremism. 
So we want to see this happen earlier.
    But the risks that you point out are recognized by the 
opposition, and despite all of the divisions that Ambassador 
Ford knows better than I do between the government and the 
opposition, the leadership of these various groups do seem to 
have a common goal. They do seem to have a common understanding 
of the importance of the fabric of Syrian society, the 
importance of preserving that fabric.
    I was in Tunis with Secretary Clinton and listened to a 
very inspiring address by the head of the Syrian National 
Council, Berhan Ghalioun. He appealed directly to the 
Christians in Syria. He appealed directly to the Alawites as 
well, but to the Syrians he said something--I will not get the 
quote exactly right, but he said something like many of you 
have left over the years. Many of you have felt the need to 
leave over the years, and when you leave, part of Syria dies. 
And we want a Syria where you can all come home. Again, it is 
not an exact quote but I am trying to convey the sentiment of 
that.
    So I think there is something to work with with the 
opposition leadership, which is an understanding that what is 
special about Syria is that rich mosaic of communities, 
religions, ethnicity, and people want to preserve that.
    Now, the Alawites are scared. You are absolutely right, and 
Ambassador Ford would know more about that than I do.
    On the economic side of things, the Syrian business 
community, as I understand, is a very--it is a Levantine--they 
are Levantine traders. They have worked for decades, if not 
centuries, on commerce across the Middle East, connections to 
Europe and beyond. This is one of those communities that needs 
to understand, in our view, that its future is better assured 
under a different type of system than is there now. And one of 
the things that came out of the Tunis meeting was a 
discussion--a commitment by the Friends of Syria to set up a 
working group to talk about reconstruction of Syria afterward 
in ways that the business community could see. We are talking 
practically about the trade relations, the investment 
relations, the financial connections that Syria can have after 
Assad in a better system.
    Right now, the sanctions that are being imposed on Syria by 
Turkey, by the Arab world, by Europe, by the United States have 
cut-outs for humanitarian supplies, including food and 
medicine. Those do not fall in general under any of these 
sanctions. However, food prices are rising, without question. 
And with 30 percent of the population of Syria under the 
poverty line before this started, without question, there must 
be hardship for people inside Syria because of the sanctions. 
But we are doing cut-outs for food and medicine. We are making 
sure that we have supplies prepositioned in Syria and nearby to 
reach vulnerable populations. Part of the assistance that the 
Secretary announced in Tunis on February 24 was to make sure 
that we had the money to pay for known partners who are used to 
dealing in conflict situations to be able to get humanitarian 
supplies into vulnerable populations.
    Senator Lugar. I thank you very much.
    Do you have a comment, Ambassador, on that?
    Ambassador Ford. If I might, Senator, let me address three 
issues real quick. First the economic situation that you asked 
about, and then I would like to make two points on the 
political side.
    First, with respect to the economy, it is in a sharp 
downward spiral, a very sharp downward spiral. The exchange 
rate, for example, has depreciated almost 50 percent in less 
than a year, really in a space of about 7 months. That has 
driven prices up in the local markets; for example, in Damascus 
where we monitor prices, food prices went up something like 30 
percent between December and the beginning of February. It was 
a very sharp rise. What that is doing in Syria is causing 
consumers to contract their purchases, and that is aggravating 
the downward spiral. It is one of the reasons the business 
community is so upset.
    In that sense, the sanctions that we have imposed have had 
a real impact. We have tried, as best we can, Senator, to 
target our sanctions so that they do not hurt the Syrian 
people. We have targeted government revenues, for example, in 
order to make it harder for the government to pay for its 
repression, to pay for its military and security forces. But we 
have never tried to block supplies of, for example, heating oil 
or cooking gas that would go into Syria. But there are terrible 
shortages of these things. When I went back in December, after 
being in the United States last fall, the stories I heard from 
people told of their fear of the repression and being arrested, 
but the next thing out of their mouths was that there is no 
cooking gas. There is no heating oil. And Damascus is 
surprisingly cold in the winter. It snows.
    So the economy is hurting. The food supplies are available, 
as Ambassador Feltman said, but people are reducing their 
consumption, generally because of prices.
    With respect to the political side of this, Senator, two 
points I think really must be made. First, the Assad regime in 
its darkest moments will try to paint this as a fight against 
Sunni, Arab, Islamist extremists; they are trying to frighten 
minority communities, especially considering that these 
minority communities looked at what happened in Lebanon and 
Iraq. They are very afraid.
    I think it is important for Americans to understand that 
this is not about Alawis versus a Sunni Arab majority. Lots and 
lots of Alawis suffer just as much repression, just as much 
brutality as do their neighbors down the road in Sunni Arab 
neighborhoods. It is important, for example, that one of the 
leading activists on the ground inside Syria right now--and she 
is in hiding and she moves around from place to place and then 
will pop up at demonstrations--she is an Alawi, a young woman 
Alawi, movie actress, very well known, and she is very brave. I 
mean, the government has tried to arrest her many times. So she 
circulates around. She is an Alawi and people know that. This 
is not Alawi versus Sunnis. This is about a family that happens 
to be Alawi that has dominated the country and stripped it for 
40 years. Alawis are suffering too."
    We have constantly urged in our discussions with the Syrian 
opposition in the country and outside the country to underline 
to the Alawi communities and all of the communities in Syria, 
whether they be Christians or business people, Druze, Kurds--it 
is a very complex social make-up--that all people in Syria 
would be treated equally, that all people's basic human rights 
would be respected and that it would be a Syria where all 
different communities would be able to live in harmony. We 
underline that message every time we meet the opposition.
    The opposition, as you have noted, is divided, and I think 
it is probably a reach to think they are going to unify anytime 
soon into one single organization. I do not think that is going 
to happen.
    My question is a little different. Can they unite around a 
vision? And I described and Ambassador Feltman has described 
our vision and our suggestions. Can they unite around a vision 
and can they unite around a transition plan? They do not have 
to unite into one single party, but they do need to share a 
vision and they do need to share an agreement on the way 
forward. And that is also what we are counseling them. We are 
not writing their transition plan. That is not our role. They 
need to do it. Syrians need to do it. But they do need to come 
together behind a plan.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much.
    I need to ask you--hopefully we can stay. We have a lot of 
Senators and I want everybody to have a chance to be able to 
get questions. So we need to try to hang in on the time.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, can you talk to us about what measures are 
being taken to encourage the Russians and the Chinese to remove 
their objection to action in the Security Council? And in that 
regard, as you answer that, is State consulting with Treasury 
on the possibility of designating and imposing sanctions under 
Executive Order 13572 on Russian and Chinese entities selling 
weapons to Assad? Because there are a lot of media reports 
stating that Russian state arms dealers are continuing to 
supply the Assad regime with arms. At least four cargo ships 
have left a Russian port for the Syrian port of Tartus since 
December of this past year carrying ammunition, sniper rifles, 
and a host of other armaments. Can you give us a sense of both 
what is being done at the Security Council to move them from 
their present intransigence toward Security Council action and 
whether we are considering, in the face of this weapon flow, 
actions under the Executive order?
    Ambassador Feltman. Senator, thanks for the question. You 
put your finger on a key element of any way forward in Syria, 
which is what is the role of Russia.
    I have to admit from the outset that I am not a Russia 
expert. You know, I defer to my bosses and my colleagues in the 
European Bureau to talk about Russian motives and things. But I 
want to assure you that sort of the contact with Russia at all 
levels is continuing.
    Russia has had interest and influence in Syria for a long 
time, and it seems to us that Russia is not going to preserve 
those interests that Russia deems to be important if it 
basically rides the Assad-Makhlouf Titanic all the way to the 
bottom of the Mediterranean. This is not a very wise move for 
the Russians to preserve their interests.
    I went out with a colleague, Fred Hoff, to Moscow a couple 
of weeks ago at the request of the Secretary to actually have a 
pretty deep discussion with the Russians about how we see the 
way forward in Syria, how we see the inevitable demise of 
Assad. And I felt that there was a lot of discomfort in Russia 
about where they are. Their analysis is not all that different 
from ours about how unsustainable the situation is for Bashar 
al-Assad inside Syria.
    But so far we have been disappointed. I can use stronger 
language about Russia's action. Even today, for example, when 
the Human Rights Council in Geneva passed a resolution 
condemning what is happening in Syria, the vote was 39 to 3. 
Who were those three? China, Russia, and Cuba who voted against 
the resolution simply on human rights grounds.
    We think it is time for the Security Council to act. We 
think it is past time for the Security Council to act. This is 
the type of situation in Syria that deserves Security Council 
action. So we are still in discussion with the Russians in an 
attempt to persuade them that they can be part of a solution. 
They can use their influence inside Syria to be part of a 
solution rather than continue to block.
    The question of arms that you raise is a deeply disturbing 
one. Why are the Russians, who condemn foreign interference in 
Syria, being the ones, along with the Iranians, to actually 
continue to be shipping arms in Syria. But I think that for 
much of this, Senator, we should probably have a discussion 
with colleagues from other agencies in a different setting.
    Senator Menendez. Well, I am happy to have that. I just 
want the administration to be thinking about what happens if we 
cannot get our Russian and Chinese counterparts to understand--
they seem to be doubling down. At least Russia seems to be 
doubling down. You say they seem to reach the same analysis 
that the final result will be that Assad would not stand. But, 
however, their flow of armament almost seems to be doubling 
down, as well as their intransigence in the Security Council. 
So at some point, that Executive order, if it is to have 
meaning, needs to be enforced, and I certainly hope that at a 
minimum we would do that because stopping the flow of armaments 
to Assad is incredibly important.
    Let me ask you one other question. What is the possibility 
of this situation devolving into a civil war, and if it does, 
what concerns do you have for the political and economic 
implications of a Syrian civil war on Syria's neighbors, 
specifically on Lebanon and Jordan, which will undoubtedly 
receive thousands of Syrian refugees?
    Ambassador Feltman. There has already been a spillover in 
the neighboring countries as Syrians fleeing the violence go to 
neighboring countries to look for refuge. You have families in 
Lebanon, Jordan, and Turkey, Iraq that have taken in Syrian 
friends and relatives. This is already an impact. In Lebanon, 
there have been people killed across the border by Syrian 
forces firing across the border. There have been violations of 
Lebanese sovereignty by Syrian forces crossing the Lebanese 
border. So there is already a spillover effect, Senator, which 
is deplorable. And we salute those families in those countries 
that are hosting Syrians outside their borders. Part of what we 
are trying to do is to provide assistance to those host 
families and governments.
    As Ambassador Ford said, Bashar al-Assad wants his people, 
wants the world to believe that if it is not for him, there is 
going to be a civil war. So part of this is the Bashar al-Assad 
propaganda machine to frighten people into believing they have 
no alternative but to stick with him or they end up in civil 
war. So part of what the region is trying to do, the opposition 
is trying to do, the international community is trying to do, 
is to help provide that path to avoid the civil war because all 
of us do recognize that it is a risk.
    But as Ambassador Ford said, more articulately than I can 
possibly say, it is not a question right now of Alawites versus 
Sunnis. It is a question of the Assad-Makhlouf mafia that has 
basically hijacked the entire state of Syria for four decades 
in order to enrich itself and protect itself against the Syrian 
people. That is what is happening right now.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Casey [presiding]. Senator Risch.
    Senator Risch. Thank you, Senator Casey.
    Ambassador Ford, first of all, thank you for your service, 
and I applaud your statement of what our policy is and your 
conveying that to the opposition and what they need to do and 
how they think about this.
    Having said that, in looking at what is happening on the 
ground over there, your statement about it being a complex 
society I think is an understatement, but I understand. You 
know, you have the Druze and the Kurds and the Sunnis and the 
Alawites and about a dozen other even smaller groups.
    The difficulty I have is how--I understand what you are 
telling them they need to do where everybody is welcome, 
everybody is going to be equal, and what have you. They do not 
have much of a history of that, and our culture has trouble 
thinking along those lines because they are so segregated. I 
mean, they are not like we are where we amalgamate into one 
society. I mean, they are very, very segregated. They marry 
within their groups. They stay within their groups. They 
socialize, do business within their groups. So saying that, 
well, you know, when Assad goes--and I believe he will go--they 
are all going to get together and do this and particularly 
looking at their organization right now, I am pretty 
pessimistic about that. So I hear what you are saying and I 
think it is a good position to take, but from a purely 
pragmatic standpoint, could you maybe analyze your own analysis 
of it from that standpoint?
    Ambassador Ford. Senator Risch, it is a very fair question. 
It is a very fair question.
    It is the sad truth that not only in Syria, but in many 
countries in that region, there is no history of rule of law 
and respect for human rights. I mean, that is just the 
historical reality.
    What I would say is just a couple of things on this.
    One of the things that I have learned from the Arab Spring, 
which is really unprecedented in my 30 years working in the 
region going back to when I was a Peace Corps Volunteer in 
Morocco in 1980, what we have seen in the last year is 
unprecedented. One of the things that I have learned is there 
is a new generation coming up, and this generation is very 
plugged into the Internet and it is very plugged into satellite 
television. They know much more about how to upload different 
kinds of videos. I mean, I had never watched YouTube until I 
went out as Ambassador to Syria. Now I watch it every day.
    Senator Risch. Do not want to know what you watch.
    Ambassador Ford. We will not go there, Senator.
    But what I would say is there is no history, but the people 
there that are leading the protest movement have a vision. They 
have a vision. And I heard this very strongly when I went to 
Hama and I heard this very strongly when I visited some of the 
restive suburbs around Damascus and when I went to Jassim. I 
heard this very strongly. They want a country where people are 
treated with dignity, everybody treated with dignity. And that 
is the key word, Senator, ``dignity.'' And they have a vision 
of a country ruled by law. My own experience having served in 
Iraq for 4\1/2\ years is this is a very hard thing to do, and 
it takes time. I saw the same thing in Algeria as well when I 
served there.
    But there is change coming and values and norms are 
changing because they are more plugged into the rest of the 
planet than they used to be. And Syrians are actually 
surprisingly plugged into the Mediterranean, for example. That 
was one of the things when I went out there.
    Senator Risch. That is an interesting observation. The 
question I would have is, does that spill over to their 
cultural hard-wiring that they have, if you would? Obviously, 
they were raised by parents in a society that protected them 
from the other minorities or other sects in the country. Is 
that breaking down at all? Do you see that at all? Are they 
intermarrying? I guess that would be probably the most telltale 
sign of that.
    Ambassador Ford. In Damascus, there are many mixed 
marriages--many, many--and in other parts of the country as 
well. In fact, one of the things, if we had Syrians sitting at 
this table instead of me, they would say to you, Senator, but 
we have always lived together peacefully and we have never had 
these problems. We are not like Iraq. We are different.
    I think one of the things that the political opposition 
needs to do--and we told them this repeatedly--is they need to 
address the fears directly and not simply fall back on the 
argument that Syrians historically have lived together 
peacefully between communities and therefore there is no 
problem. There is a problem. There is a problem and they need 
to address it.
    I think the younger people do understand that fear. In the 
demonstrations every Friday where they have the big ones, the 
really big ones, there frequently are banners. This is watching 
it on YouTube that say Ash Shawb as Suri wahi, which is Arabic 
meaning the Syrian people are one. And what they are trying to 
express there is no sectarian divisions. Do not let the Assad 
regime play one community off against the other, which is very 
much what the regime ultimately is trying to do.
    There are signs all over Damascus that the government put 
up saying beware of sectarian strife. Well, the opposition is 
saying the people are unified against you. It is the government 
that is even raising the issue in the first place.
    Senator Risch. Thank you, Ambassador Ford. I appreciate 
your optimism on the subject. I hope you are right.
    Thank you, Mr. Chairman.
    Senator Casey. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    First, Ambassador Ford, thank you very much for your heroic 
service. We watched what you were doing in Syria and I know the 
international community was also, and it was a bright moment, I 
think, for United States leadership. So we thank you very much 
for that.
    Secretary Feltman, I think we all agree that there will be 
a tipping point that the Assad regime will not survive. The 
challenge, though, is that until that happens, the humanitarian 
disasters will only get worse. So how many people are going to 
lose their lives or their lives will be changed forever until 
that tipping point is reached is a matter of grave interest to 
all of us.
    You point out that there is a growing unity in the region, 
in the Arab world, which would, I think, point out that our 
options may be stronger than we think. We may have more 
opportunities to try to save lives. I am very mindful of 
Senator Lugar's cautionary notes, and we all share that.
    But I guess my point is what can we do? What can the United 
States do in leadership to minimize the sufferings that are 
taking place and will take place until the Assad regime is 
removed? What can we do working with our international partners 
to provide the best opportunity for the safety of the civilian 
population in Syria during this period of time?
    Ambassador Feltman. Senator, thank you. This is a question 
we are talking about all the time. What can we do either 
ourselves as Americans, but more importantly, what can we do 
together with our partners in the region and beyond? And the 
``what we can do together'' question, I think, is the more 
important one particularly because frankly our influence in 
Syria is much less than the influence of some of our neighbors. 
Our economic ties with Syria before all this started were 
extremely limited compared to the economic ties between Syria 
and Europe, Syria and Turkey, Syria and the Arab world.
    And there was an international consensus that came out of 
Tunis that we all need to be doing more on the humanitarian 
side working with partners who have a history of working in 
conflict areas that can get things in to vulnerable populations 
inside Syria, working with the neighbors who are hosting people 
who have fled Syria. There is a consensus, an international 
consensus, on that from the region, from the world. That is an 
important short-term goal is getting things in, making sure 
warehouses are stocked, supplies are prepositioned.
    There was an international consensus as well for increasing 
the pressure on Assad through a variety of means. We have 
talked a lot about the sanctions already. But there are always 
more sanctions that can be done particularly from those 
countries, as I said, that have had stronger economic ties in 
order to deprive the regime of its income.
    There is a consensus that we all need to be working with 
the Syrian opposition in all of its forms, and Tunis there was 
a recognition that the Syrian National Council is a legitimate 
representative of the voices of the Syrian opposition and we 
are working with that.
    But I think that your question actually hints at something 
beyond that. I think for more aggressive action, we would need 
to have a larger international consensus than currently exists.
    One thing that we are definitely working on, going back to 
Senator Menendez's question, is to see what role the Security 
Council can play because we think it is high time. It is past 
time for the Security Council to be playing a role. And that 
too was a consensus that came out of Tunis, that people and 
countries and institutions represented there want to see an end 
to the blockage by Russia and China of the Security Council 
taking action.
    Senator Cardin. You are right. I was trying to probe as to 
what more we could do. I agree with you. You need international 
unity, and the Security Council is where we normally start 
that. It is not the exclusive area. It is not the determinative 
area, but it is certainly one which would give us a stronger 
footing. Having the Arab League is clearly important. So I 
would hope that we would work together exploring options to be 
more aggressive, where we can effectively in unity with the 
international community.
    You mentioned another point that I found very interesting 
and that is the popularity of the Assad regime being at the low 
point. And I would expect that Hamas recognized that when it 
pulled out of Damascus, which is presenting, I think, a real 
challenge for us, a terrorist organization that we clearly are 
very concerned about their influence in that region. It looks 
like they are taking further steps to become more popular among 
the Arab population and countries.
    Can either one of you give us an update on Hamas and its 
movement and how we are going to counter some of their issues 
and its relationship not just with Syria, but also with Iran 
and with other countries in that region?
    Ambassador Feltman. I mean, I think it says something when 
you have a terrorist organization that has been coddled for 
years, decades, by the Assad regime basically pulling out 
saying that they cannot even stand what the Assad regime is 
doing. But you are exactly right. It gets at the popularity 
question.
    If you look at Zogby polls, you know, Zogby has a long 
history, credible history of doing polls in the Arab world. A 
couple of years ago, there was a question posed to Arabs. Who 
is the most popular Arab leader outside of your own country's 
leader, since everyone would have to say my own leader is the 
best? At least a couple of years ago, they would have said 
that. And Bashar al-Assad was the most popular leader outside 
of whatever the home country is. If you look at the same polls 
today, the same questions in the same places, he is at the 
bottom of the list. That is not lost on even terrorist 
organizations like Hamas.
    But this does not change our calculus on Hamas. Our demands 
on Hamas are the Quartet demands on Hamas which is, you know, 
Hamas, to be accepted as a responsible player, needs to accept 
the Quartet conditions of recognition of Israel, renunciation 
of violence, and adherence to all the agreements that have been 
signed between the PLO and Israel. So it is interesting and 
telling that even Hamas cannot stomach what Bashar is doing to 
his people, but it does not change our calculation.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Senator Rubio.
    Senator Rubio. Thank you both for being here today. And, 
Ambassador Ford, thank you. I know everyone is telling you 
that, but thank you for your service. It is one thing to sit 
here and talk about these things. It is another thing to be 
there and be the target of some of some pretty vicious stuff. 
So thank you for your service to our country and for this 
cause.
    A quick question before I want to get to the bigger one. I 
read in Bloomberg Business this week that the head of the 
Venezuela national oil company said that the company is not 
prohibited from shipping oil to Syria under current sanctions. 
I do not know if that is correct or not. We will just follow up 
with you and see if that is the case under the current system.
    Ambassador Feltman. It is technically correct that they are 
not prohibited from shipping oil to Syria. It is still morally 
wrong to be providing diesel that can be used in military 
machines that slaughter innocent Syrians. So it is morally 
wrong, but it is not legally wrong.
    But it also is not the same as what Syria had before 
November, which is the ability to export its own oil, earn its 
own revenues to put in the pockets of Bashar to do with as he 
wants.
    Senator Rubio. And that is a conversation for another day. 
But one of the things we can talk about is how can we reduce 
third-party support for the Assad regime, and this just brought 
that to light.
    But what I really want to focus on is more of the U.S. 
national interests. What I want to do is kind of posit a view 
of it to you and see what you both think about it. We look at 
something in a country that for many, many years has been kind 
of a transit point and haven for terrorists. Especially 
Damascus has been kind of the hub of all that, in addition, a 
state sponsor of terrorists themselves and a key ally of our 
biggest problem in the region, not just for us but for the 
world--Iran. Now, the people there say we want to get rid of 
the guy that runs this place, and obviously there is a lot of 
internal divisions. We have talked about the complexities of 
all of that.
    But in the midst of all this, it seems to me that as much 
as anything else--and clearly this is about regime change. This 
is clearly about a change of direction for the country. But 
from our strategic point of view, it is also a competition for 
future influence; in essence, who is going to influence the 
direction that Syria goes in the future? Islamists, al-Qaeda, 
and others see that. They see this chaos and they say we can go 
in there and take advantage of this chaos to our advantage, 
create an even better place for us to operate in. And on the 
other hand, nations like ours see this potentially as an 
opportunity to go in and influence the Syrian people to embrace 
what you, Ambassador, have said what you think is their 
widespread sentiment, which is rule of law, a functioning 
democracy, a country that decides they want security, that they 
do not want to be a haven for terrorism. They just want to be 
normal people living in a normal country with normal and 
everyday aspirations.
    And so as much as anything else, our involvement, I think, 
is about what influence our view of the world, which we think 
is better for the Syrian people, could ultimately play in that 
country. And my guess is, having only been on this committee 
for a year, having traveled, for example, to Libya in the 
aftermath of what happened to Libya--I know there are big 
differences between Libya and Syria, as the Secretary pointed 
out a couple of days ago.
    But one of the things I was struck by, as you drove through 
the streets of Libya, is pro-American graffiti on the walls, 
people walking up to us in the street, who I know were not 
staged, to thank us for the role America played, even though 
some of us wanted us to even do some more in that regard.
    And my point is I think it is going to be really hard 5 
years from not, not impossible--anything is possible and I am 
certainly not an expert on the culture, but I think it is going 
to be really hard for an Islamist to go to one of these young 
guys who was thanking us, who thought America was on their 
side, and convince them to join some sort of anti-American 
jihad in a couple years. On the other hand, I can tell you they 
are really angry at the Chinese. They are really upset at some 
of the countries that turned their back at them.
    And I think that is kind of happening here too, I hope, 
that people in Syria clearly know that the American people, 
that this Senate, that the people of the United States are on 
the side of their aspirations. We cannot decide who wins and 
who is in charge and how they balance all these internal 
conflicts that they have, but we clearly want them to be able 
to pursue their peaceful aspirations, and we want them to have 
a country that prospers. And I think in the national interest 
of the United States, it is critical that future generations 
and Syrians in the future say, hey, you know, America was on 
our side. We do not have a problem with the American people and 
we want no part of these strange movements that would have us 
join some anti-American sentiment. And we hope that one day 
that means they will also be not so anti-Israeli, maybe even 
pro, although that is wishful thinking. But I think that is 
what our national interest is here in the big picture.
    I know I took longer than I wanted to to explain it, but I 
wondered if you would agree with that or criticize it or share 
your thoughts in that regard.
    Ambassador Feltman. I will make a couple comments and I 
will let Robert talk about inside Syria.
    I mean, first of all, I cannot believe that any of these 
countries, anyone, is looking to trade one kind of tyranny for 
another type of tyranny. We do not know for sure how these 
transitions across the Arab world are going to turn out, but I 
think it is pretty clear that this quest for dignity means that 
people are going to guard against going from one tyrant to 
another type of tyranny. We have also seen that while al-Qaeda 
has tried to exploit unrest across the region, that that al-
Qaeda ideology does not have any appeal for the sorts of young 
people and protesters across the region that are looking for 
dignity and opportunity.
    In terms of the Syrian people, I will defer to my 
colleague, Ambassador Ford, but I will give you one example 
similar to your experience in Libya that he would probably be 
too modest to raise. But when Ambassador Ford went to Hama, 
when Hama was being encircled by Syrian tanks, the people of 
Hama tossed flowers onto his limousine. He got back to Damascus 
and the regime staged an attack against our Embassy. The people 
of Syria know exactly where Robert Ford stood in terms of their 
rights and aspirations, and Robert Ford represented us very 
ably in showing that is where the American people stood.
    Ambassador Ford. Senator, I think it is very telling that 
in the demonstrations every week in Syria, they burn Russian 
flags, they burn Chinese flags, they burn Hezbollah flags. That 
tells you what they think. Frankly, from our strategic 
interests, that is a good thing, I think, in the sense that we 
want Syria in the future to not be the malignant actor that it 
has been supporting terrorist groups and being the cause of a 
great deal of regional instability. And so I think there is 
huge potential strategic gain for us as a country with the 
changes going on in Syria.
    But that is not why the Syrians are doing it. That is not 
why the street protest is doing that. They are doing it because 
they want dignity. And I think it is very important for us, as 
we go forward, to keep in mind that the most important thing we 
can do is keep stressing over and over our support for 
universal human rights being respected in Syria like other 
countries: freedom of speech, freedom to march peacefully, the 
right to form political parties, and to have life under a rule 
of law, a dignified life. That is what I tried very hard 
constantly to underline during my time there, just those basic 
values.
    The Syrians can work out their politics, and as Senator 
Risch said, it is going to be hard. It is going to be really 
hard. But if we stay on the track of respect for their human 
rights, we will ultimately be on the side that wins here.
    Senator Casey. Thank you very much. I am next in line and I 
will try not to use all of my time.
    But, Assistant Secretary Feltman, thanks for being here 
today and for your ongoing public service.
    Ambassador Ford, you have heard it before, but it bears 
repeating. We are grateful for your service in so many 
assignments but especially under the horrific circumstances you 
have had to face, and we are grateful you are with us today.
    I guess some of us, not being on the ground like you were, 
have difficulty in imaging or even articulating the scale and 
the gravity of the violence. It is just hard to even 
comprehend. Even though we see the television images all the 
time, I just cannot even imagine what it is like. A number of 
us have been, frankly, impatient with what Washington has done 
or not done. I will say both the Senate and other institutions. 
So we are impatient. We are also frustrated.
    This hearing today is one way to advance the development of 
a body of work that can undergird another resolution. I know we 
just had a resolution. Frankly, I thought it was very weak. I 
supported it but it was not nearly enough. So I am glad that we 
having this hearing to advance the ball.
    I wrote down two words here when working with Damian and 
Chloe on our staff about the formulation of questions, and they 
are two words that, I think, make sense for what we are trying 
to do, at least what I hope we could do. One is ``solidarity'' 
and one is ``commitment,'' that we need to figure out a way to 
not just express outrage and not just talk about solidarity, 
but figure out ways to, in fact, bring about a policy or 
strategy that will demonstrate, that will prove, in a sense, 
our solidarity with the Syrian people. That is one priority.
    And the other is commitment to a number of things, a number 
of priorities, but commitment especially to humanitarian and 
medical assistance. If we are going to say, as I think it is 
the consensus position, that this should not be a military 
engagement on our part, if we say that, we better get the other 
parts right. And the other parts are humanitarian and medical 
assistance.
    So my first question is for Mr. Feltman. I know the Friends 
of Syria meeting took place and that was very positive. And I 
know we have a commitment of $10 million to the refugees and 
the IDPs. But I want to get a better sense of what was agreed 
to at Tunis specifically as it relates to humanitarian 
assistance and what the United States can do to address this 
horror. So if you can just walk through what is definite in 
terms of an agreement and what will actually lead to action.
    Ambassador Feltman. Chairman Casey, thanks.
    In Tunis, the discussion on humanitarian issues fell into 
two categories: first, how do we help those countries around 
Syria that are hosting Syrians who have fled their country, and 
that is, frankly, an easier topic. First of all, the countries 
themselves, the families in those countries have been generous, 
and it is a question of helping host--there are not large-
scale, for the most part, refugee camps. For the most part, 
people have gone to stay with friends and relatives outside of 
Syria. And so it is a question of helping those host families 
getting assistance to what camps there are, and that is a 
relatively straightforward proposition. You know, on our part, 
the State Department's Population, Refugee, and Migration 
Bureau is working in those areas.
    But the second question is a much harder one that came up 
in Tunis, and it comes up internally inside the United States 
Government, which is access inside Syria. How do you reach the 
vulnerable populations inside Syria? That is a much, much 
harder issue. And right now, the problem of humanitarian 
deliveries in Syria is not supplies. It is not related to 
money. The international community has sufficient resources, 
has sufficient commitments. It is a question of access.
    Just yesterday, you had Valerie Amos, who is the U.N. Under 
Secretary, the humanitarian coordinator, who had been waiting 
in Beirut for days for a Syrian visa to go into Syria. She 
finally left because it was clear the Syrians were not going to 
be giving her a visa. And that tells you something, that not 
only is Bashar killing his people, butchering his people, but 
he is also trying to prevent the international community from 
having the right sort of response.
    Now, it does not mean we are not responding. Unfortunately, 
in today's world, there are a lot of conflict situations around 
the world. There are a lot of partners with whom we have worked 
in conflict situations around the world already. So you can 
work with groups, WFP, others. AID's Office of Foreign Disaster 
Assistance has a history of being able to work inside conflict 
areas through trusted partners to make sure that our assistance 
is going to where it is directed. But it is not easy.
    So the big question is access, and it goes back to Senator 
Menendez's question about the Russians because this is one area 
where the Russians have expressed a lot of concern as well 
about the humanitarian situation. And we would like to see that 
Russian concern that is stated on humanitarian to be translated 
into the type of pressure on the Assad regime that helps ease 
these questions of access.
    Senator Casey. Thank you.
    Ambassador Ford, anything?
    Ambassador Ford. I liked your two words, Senator, 
``solidarity'' and ``commitment.'' And I think especially right 
now, when people in cities like Homs and Idlib and Zabadani are 
under siege, I think holding this hearing is terrific and I 
think the concerns expressed by bodies like the U.S. Senate are 
especially important. I would never want Syrians to think that 
because we closed the American Embassy, we are no longer 
interested in their efforts there to create a new Syria that 
treats people with dignity.
    And with respect to the commitment that Jeff was talking 
about, I would just underline that we do need to get access. We 
have supplies positioned. We just need to get access into the 
country. And if the Russians would, indeed, translate their 
expressed policy into actions in terms of pressure on the 
Syrian Government, we would hope that they would do that now.
    Senator Casey. Thank you very much. My time is up. I will 
submit some others for the record.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and to the other 
chairman who was here first, I am glad we are having this 
hearing and I hope we will have multiple hearings on Iran. It 
feels to me that we are moving into a position where military 
conflict is going to be weighed, and I cannot imagine why we 
are not having a hearing on Iran, both classified and 
unclassified, every single week. But I sure hope in your 
temporary capacity, we can urge that. I would think all of us 
would benefit from it.
    But we thank both of you for your testimony and for your 
service to our country.
    We had a classified briefing yesterday that could not have 
been more different than the one we are having today. It is 
really kind of fascinating.
    You know, when we talk about the opposition groups, this 
part I do not think is classified. I mean, you ask, OK, what 
are these guys fighting for? The word ``democracy'' never comes 
up. I mean, basically you have got an Alawite minority that has 
dominion over, if you will, a Sunni population mostly, and what 
the Sunnis are fighting for is dominion over the minority 
population. I mean, we heard no words whatsoever about anything 
other than this being a conflict between one group of people 
that has been oppressed by another group of people and their 
desire to change that equation.
    And so when I hear these flowery statements, I do hope, 
especially Ambassador Ford, since you have been there, if you 
could educate us a little bit because this is a night and day 
presentation from what we had through our intelligence 
community yesterday.
    Ambassador Ford. Senator, the opposition is divided. There 
is no question about that. And it is fractious, and there are 
competing visions within the Syrian opposition. There is an 
Islamist element, for example, as contrasted to a secular 
element. And that is why I spoke before about the need for the 
opposition to unify around a vision and the need for the 
opposition to unify around a transition plan. The transition 
plan would, in fact, be the way to attract people that have 
been sitting on the fence so far to join the protest movement 
itself.
    I do not know what you heard in the briefing yesterday, but 
let me just say from direct, firsthand experience, I have 
talked to people who have organized the demonstrations, and I 
have had team members from my embassy talk to them repeatedly. 
We got a very clear message from them, the people who organized 
this, Senator, that they have a vision of a state that abides 
by rule of law and is not targeting the Alawis.
    However, it is a complex society and the longer the 
violence goes on and the government is driving this violence, 
perhaps intentionally with this in mind, the greater the risk 
that the sectarian conflict that we have seen in Homs but 
really has not been seen to such a degree in other cities--Homs 
is the worst--that it would spread and metastasize into other 
cities in Syria.
    But let me give you some very concrete examples. There are 
Druze communities in southern Syria. The Druze community is now 
more and more saying that they should stop supporting Assad's 
regime and begin to support the protest movement. There have 
been calls by leaders in a city called Suwaida, which is south 
of Damascus, for Druze to stop serving in the Syrian military 
and to join the protest movement. There have been calls within 
the Alawi community, including Alawi religious figures, to stop 
supporting Bashar al-Assad and his regime. I think the 
expression they used in their communique last autumn was it 
will be the ruin of us if we continue----
    Senator Corker. If I could, I mean, I appreciate all the 
background and history. But I think what you are saying is 
there is no central vision. There are lots of differing 
visions. And we have diplomatic relations, if I remember 
correctly, with Syria. Is that correct?
    Ambassador Ford. Yes, we do.
    Senator Corker. And I think you went over there to work 
with this government to put reforms in place. And by the way, 
there was a controversy over you being there. I very much 
supported you going and doing that. I thought that was an 
intelligent thing for us to do. But we have diplomatic 
relations. We are working on reforms, and they obviously have 
done some really, really terrible things and are brutal and 
obviously are not the kind of government we want to see 
pervasive around the world.
    But the fact is that this is not exactly a democracy 
movement in Syria right now. I mean, there are some people who 
are espousing that. You are talking about the people who are 
organizing, but the people fighting, from what I understand, 
are fighting for power in government. They are not fighting 
under the banner of democracy, as was laid out by Mr. Feltman, 
at least by our intelligence community anyway.
    Ambassador Ford. Senator, I am going to have to 
respectfully disagree. The public statements from senior 
figures in the Free Syrian Army speak about supporting a 
democratic state. We do not know yet what they would do were 
they in power. We only have their----
    Senator Corker. Who would be in power, by the way? I mean, 
I think it is pretty interesting. If Bashar was gone, who would 
be the person that was leading the country there? I mean, who 
is it we are supporting, if you will, morally at least?
    Ambassador Ford. We are supporting a transition which the 
Syrian National Council has laid out in connection with a 
roadmap set out by the Arab League. In a sense they are linked. 
Out of that would be a process by which a leadership would be 
chosen. I cannot give you a name. I can define the process for 
you. But I cannot give you a name. I think this is an important 
point, though, Senator. The people who are doing the fighting 
say they are fighting to defend the protest movement. So there 
is a link even if you cannot say that the fighters themselves 
claim they are fighting for democracy.
    Senator Corker. Do you think it is in our national 
interest--and I will close with this--to be involved in 
military operations, arming operations to going in with al-
Qaeda and Hamas and others and certainly the folks that are on 
the ground, the opposition groups, to overthrow this 
government?
    Ambassador Ford. Senator, as I said, we have been 
supporting a plan developed by the Arab States for a political 
transition. The Secretary spoke earlier this week of some of 
the discussions that we have had in-house about how complicated 
this is in terms of thinking about arming people in Syria, 
arming the opposition, how complicated it is in terms of, A, 
knowing who is it, exactly, you are giving the arms to and what 
do they represent. This gets into a little bit of your question 
of what are they fighting for. How would you deliver it? What 
good would it do when they are facing tanks and they are facing 
heavy artillery? These are extremely complex questions, and I 
think we are not yet at a point where we could discuss it in 
this kind of forum at least.
    Senator Corker. Listen, thank you, and I appreciate you 
laying out the tremendous complexities and competing forces and 
the lack of knowledge of even what this is really all about. 
And hopefully over time, we will understand that more fully and 
I am sure you will play a role in that. Thank you.
    Senator Udall [presiding]. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And, gentlemen, I appreciate your being here today. Both of 
you are a great repository of experience in the region. I 
appreciate the opportunity to listen to you on a number of 
areas.
    I would like to pick up a little bit on this notion of 
``afterward,'' which you mentioned several times today. What 
exactly is the afterward? What would it potentially be, and 
what would it potentially not be?
    We can look back in fairly recent history and there are a 
couple of realities I think we ought to be looking at as 
starting points. One is that repressive regimes sometimes do 
survive. Probably the best example of that is the Chinese 
Government itself when it turned its army and its tanks on its 
own people in Tiananmen Square about 22-23 years ago and, 
depending on the count, killed more than 1,000 of its own 
people. And it is still in power. It is more than still in 
power, we all know.
    Another reality is particularly in this part of the world--
and both of you have an enormous repository of experience in 
this part of the world--the outcomes from these types of 
unrests are rarely quick. They are rarely clean, and they are 
rarely fully predictable. I have an engineering degree and I 
look at a lot of what has been happening over the last year 
sort of through the eyes of the chaos theory. You know, the 
``chaos theory'' actually is a scientific theory. It is not 
political. It is a political term. But one degree off, one 
assumption off, you end up with a compilation of results that 
is far away from where you thought it might be. And perhaps the 
best, clear example of that is Lebanon itself, looking back in 
the 1980s and beyond.
    But also, I think we have to say openly that we do not know 
what is going to come out of the last year. We do not know how 
the Arab Spring is going to play out. It is going to take years 
for it to clearly manifest itself in some sort of a political 
apparatus in a number of these different countries.
    There are two questions--I am going to ask them both 
together in the interest of time here--that I would seek your 
thoughts on.
    The first is that there are actors in this region, 
government actors, that quite frankly may not be saying this 
openly but might be very hesitant about the complete removal of 
the present Syrian regime, that believe that a weakened regime 
might be more palatable in terms of regional instability, even 
security in some of these countries than what would result from 
capitulation. And I think, Ambassador Ford, your answer to 
Senator Corker kind of shows how difficult the building blocks 
would be to put together a replacement regime.
    And the second is we have talked a lot about Russia, but I 
would like your thoughts as to why China has declined to be 
more forthcoming.
    Ambassador Feltman. Senator, thanks.
    You are absolutely right that we do not know how these Arab 
transitions are going to turn out. And of course, the challenge 
is that our interests in how they turn out are great, but we 
have to be modest about how much influence we can play in 
helping to determine those outcomes. And so you put your finger 
on a big issue given the transitions going on in the Arab 
world.
    But in terms of the United States, it is not in our 
interest to see the Bashar al-Assad regime survive. We have, 
obviously, talked a lot about the moral, the human rights, the 
ethical questions today, but we have also touched on the 
strategic questions. This was a regime that exported terror 
into Iraq that killed our soldiers in Iraq----
    Senator Webb. Trust me. I am not advocating that end 
result. The question was that there are countries in the region 
that would be making that point quietly if not openly.
    Ambassador Feltman. But I think if you look at the Arab 
League transition plan, when you talk about what happens 
afterwars, the Arab League transition plan was designed with 
that fear of chaos and civil war in mind because it was 
designed in a way by which not Assad himself, but parts of the 
current system and the opposition movement together work on a 
pragmatic, practical transition plan that preserves the state's 
unities, that preserves the state institutions. It is one of 
the themes that we get repeatedly from Syria's neighbors, as 
well as from Syrian opposition. The army has to be preserved. 
The security services need to be preserved. And so I think the 
people are, in fact, working on a transition plan with the idea 
that you can preserve the state but a state that is no longer a 
malignant actor in the region but can be a positive actor in 
the region.
    Senator Webb. A vote was called and out of respect for my 
colleagues--I appreciate that observation. Could you give me 
just a quick thought on the situation with China?
    Ambassador Feltman. Yes. Neither one of us are great 
experts on China, having served our careers in the Middle East.
    But China tends to follow Russia on the Security Council in 
many of these cases is what my colleagues in the International 
Organizations Bureau tell me. And China also has certain 
trading interests inside Syria. But China also has interests 
elsewhere in the Arab world, and there is where I think the 
dialogue with China needs to focus on, which is what China has 
to lose by losing credibility elsewhere in the Arab world.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Webb.
    As he said, we had a vote go off at 11:31. So it is a 15-
minute vote, but I think we will be able to finish. I just have 
a few questions to be able to finish up here and release you 
and adjourn the hearing, unless we have other Senators come in.
    There are reports that Saudi Arabia and Qatar may be 
planning to arm the rebels in Syria or may have already begun 
to arm the rebels. In addition, it has been reported that 
religious support for arming the rebels has increased in Saudi 
Arabia.
    What is the position of the United States with regard to 
the possibility that Saudi Arabia or other Arab countries are 
arming the rebels and are we communicating what our position is 
on arming the rebels? And could that lead to the empowerment of 
Hamas and al- Qaeda as a result?
    I realize and I apologize. I was in the chair presiding 
over the Senate. Some of this may be ground that you have gone 
over, but if you could answer that, that would be great.
    Ambassador Feltman. Senator, we have been very hesitant 
about pouring fuel onto a conflagration that Assad himself has 
set. So we are very cautious about this whole area of 
questioning. And that is why we have worked with this 
international consensus on political tracks, on economic 
tracks, on diplomatic tracks in order to get to the tipping 
point that we were talking about earlier.
    Now, there is self-defense going on inside Syria right now. 
We cannot criticize the right to self-defense when people are 
facing the incredible brutality. But we would like to use the 
political tools that are at our disposal. That includes the 
Security Council in order to advance the tipping point because 
it is not clear to us that arming people right now will either 
save lives or lead to the demise of the Assad regime. There are 
a lot of very complicated questions. Robert went through some 
of them earlier. Right now, the Syrian regime is using tanks 
and artillery against entire neighborhoods in Homs. I do not 
think when you hear the Saudis and Qataris talking about arming 
the opposition, they are talking about somehow getting tanks 
into the opposition and how would the opposition know how to 
use them anyway? So it is a really serious question. People are 
talking about it. People are looking at it. But there are a lot 
of complications that one needs to consider.
    Senator Udall. Ambassador, if you have any thoughts on 
that.
    Ambassador Ford. I agree exactly with what Ambassador 
Feltman said.
    We understand the earnest desire, the need for people under 
siege in a place like Homs or in a place like Dana when their 
homes are being attacked by thugs and people want to take up 
arms to defend themselves. We understand that. It is human, I 
mean, to protect your family. We cannot criticize that.
    However, Senators Kerry and Lugar both spoke about the need 
for us to work with regional states to find a durable solution, 
and that is our thinking too, and that is why we have been so 
strongly in support of the Arab League initiative and the 
transition process that it laid out.
    If I may just add one other comment, Senator Udall, we too 
have noticed the increase in support from religious figures in 
some Arab countries for taking up more arms against the Syrian 
Government. We have seen statements by various religious 
figures across the Arab world. We have cautioned the opposition 
that if they declare some kind of big jihad, they will frighten 
many of the very fence-sitters still in places like Damascus 
and it will make ultimately finding a solution to this, a 
durable solution, more difficult. We do not want to see Syria 
go toward civil war. We want to see the violence stop 
immediately and to see Syria begin a political transition.
    Senator Udall. Thank you for those answers.
    The other issue--and it may have been touched on a bit--is 
this whole issue of weapons of mass destruction and what is 
happening in Syria. If and when the Assad regime falls, are we 
considering and making plans regarding how to account for those 
weapons, how to ensure they not fall into the hands of 
terrorist organizations such as al-Qaeda? Is this an issue that 
is being discussed among the allies and people in the region 
that are concerned?
    Ambassador Feltman. Senator, you put your finger on an 
extremely important point, and this is a topic that is being 
discussed actively with Syria's neighbors, with our allies in 
Europe and elsewhere.
    Syria is not even a signatory of the Chemical Weapons 
Convention. This is just a reminder of the destabilizing role 
that Syria has played over the years, the fact that these 
stockpiles even exist. We do not have any indication at this 
point that these stockpiles have fallen out of the control of 
the Syrian Government, but it is one of the reasons why a 
managed transition is so important rather than a chaotic 
transition program.
    But we are watching this. We are watching this carefully. A 
lot of discussions with the neighbors. Some of the discussion 
we would have to have in a different setting than today.
    Senator Udall. Great, thank you.
    Ambassador, do you have any other thoughts on that issue?
    Ambassador Ford. I would just underline that it is a 
subject of great concern to us and we are looking at what needs 
to be done. But let me assure you, Senator, we have got a lot 
of people working on it.
    Senator Udall. Well, I know you do. You know, when I get 
home to New Mexico, a lot of people--you realize there is a lot 
of concern about kind of the brutal massacre of the Syrian 
people by its government when really this started out as a 
peaceful protest and then evolved into what we are seeing 
today.
    So all of us, I think, on the committee very much 
appreciate Senator Kerry holding the hearing. We very much 
appreciate both of you being here.
    We are going to keep the record open until the end of the 
week. There may be additional submissions and you may or may 
not get additional questions as was indicated earlier.
    But thank you very much for your service.
    And with no additional questioners here, we would adjourn 
the hearing.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Assistant Secretary Jeffrey Feltman and Ambassador Robert 
          Ford to Questions Submitted by Senator John F. Kerry

    Question. At the recent Friends of the Syrian People conference in 
Tunis, the United States pledged $10 million in support to help provide 
humanitarian assistance to refugees and internally displaced persons. 
Please provide some details on how this money will be spent to provide 
much-needed humanitarian assistance to these vulnerable populations. 
How will that money be spent? What account will it come from and how 
are we ensuring that there is oversight and efficient disbursement of 
those funds? There are reports that, with the withdrawal of opposition 
fighters from Homs, aid agencies have been allowed to deliver food and 
medical supplies to the city. What steps is the United States taking to 
help these aid agencies expand their capacity to address the critical 
needs of Syrian civilians impacted by the violence?

    Answer. The United States is currently in the process of providing 
more than $10 million in humanitarian assistance to support those 
affected by the violence in Syria. This assistance will support 
international and nongovernmental humanitarian partners, including $3.5 
million to the United Nations High Commissioner for Refugees (UNHCR), 
$3 million to the International Committee of the Red Cross (ICRC), $3 
million to the World Food Programme (WFP), and over $1 million to a 
nongovernmental organization (NGO) working in Syria and in the region.
    Assistance through UNHCR and ICRC is delivering critical medical 
services and supplies, food, water, blankets, hygiene kits, heaters, 
and winter clothing to the Syrian people. This funding will also 
provide support for host families who are sheltering displaced Syrians 
due to the ongoing violence and to those who have fled to neighboring 
countries. Assistance through WFP is targeting 100,000 people affected 
by the civil conflict in 11 governorates in Syria. The WFP operation 
provides rations to displaced Syrians and host families, households 
that have lost breadwinners or livelihoods, female-headed households, 
and unaccompanied minors. Assistance through the NGO is supporting 
emergency medical services in Syria. This funding is coming from the 
Migration and Refugee Assistance and International Disaster Assistance 
accounts.
    Safe access for humanitarian workers continues to be a challenge--
and we hold the Syrian Arab Republic Government responsible for 
providing this access. The United States welcomes the news that U.N. 
Under Secretary General for Humanitarian Affairs and Emergency Relief 
Coordinator, Valerie Amos, and U.N. Arab League Special Envoy to Syria 
Kofi Annan have travelled to Damascus. The United States continues to 
urge all parties to permit safe access for delivery of humanitarian 
assistance. The Department of State and USAID are in constant contact 
with our partners regarding the distribution of this assistance to 
ensure it reaches its intended beneficiaries. USG officials will travel 
regularly to the region to meet with host government officials, 
humanitarian partners, and beneficiaries to assess the effectiveness of 
the international community's humanitarian response. Humanitarian 
organizations have recently been able to access Homs and are in the 
process of providing assistance to that area, as well as in other parts 
of Syria. In coordination with other donors, the Department of State 
and USAID will continue to ensure our partners have the support they 
need to maintain these critical humanitarian operations.
    Question. The Friends of the Syrian People meeting brought together 
many nations in support of the pro-democracy movement in Syria. Leaders 
from around the world reaffirmed their commitment to isolate the Assad 
regime politically and economically.

  <bullet> What are the next steps since the initial Friends of the 
        Syrian People meeting?
  <bullet> What is the objective of the Friends of the Syrian People? 
        Will there be regular meetings to coordinate international 
        efforts to assist the pro-democracy movement in Syria?

    Answer. On February 24, the United States along with 60-plus 
members of the Friends of the Syrian People made commitments to get 
humanitarian aid to the suffering Syrian people, to increase diplomatic 
pressure and tighten sanctions on Assad and his regime, to strengthen 
the transition planning of the opposition, and to support the efforts 
of U.N. envoy Kofi Annan and the Arab League to end the violence and 
begin a true dialogue that will lead to the change the Syrian people 
deserve. Since the inaugural meeting, the EU announced its 12th round 
of sanctions against the Assad regime, which were expanded on February 
27 to include Syria's Central Bank and trade in precious metals and 
diamonds. Joint U.N.-Arab League Special Envoy Kofi Annan announced 
plans to travel to Damascus to meet with the Assad regime and will 
present a proposal to end violence and unrest in Syria, increase access 
for humanitarian agencies, release detainees, and start an inclusive 
political dialogue. It is not clear that he will be able to make 
progress. Russian FM Lavrov intends to meet with the Arab League's 
Syria Committee on March 10.
    On the humanitarian front, the Friends of the Syria People meeting 
resulted in pledges of tens of millions of dollars in humanitarian 
assistance for the Syrian people. Although U.N. Under Secretary General 
for Humanitarian Affairs Valerie Amos was not granted authorization to 
travel to Syria in late February, we have urged Syrian authorities to 
grant immediate and unfettered access as soon as possible. As part of 
its ongoing emergency food operation targeting 100,000 conflict-
affected individuals in Syria, since February 20, the World Food 
Programme has delivered 16,850 family food rations--sufficient to feed 
approximately 84,000 people for 1 month--to Syrian Arab Red Crescent 
(SARC) warehouses in 11 governorates. Between February 20 and early 
March, the SARC had distributed over 7,000 WFP food rations to 
beneficiaries in 11 designated governorates, although several of the 
worst-affected areas within the governorates remain inaccessible due to 
insecurity. The Organization of Islamic Cooperation also announced that 
Syrian authorities had granted the group permission to send 
humanitarian aid to Syria.
    As outlined in the Chair statement of the Tunis conference, the 
goal of the Friends of the Syrian People is to achieve ``a political 
solution to the crisis that meets the aspirations of the Syrian people 
for dignity, freedom, peace, reform, democracy, prosperity and 
stability.'' We are continuously consulting with the like-minded 
partners on ways to pressure the regime to end violence and enable a 
political process to move forward. Turkey plans to host the next formal 
meeting of the Friends of the Syrian People on April 1, 2012.

    Question. Besides the SNC's public statements at the Friends of the 
Syrian People meeting, how are the FSA and local Syrian groups publicly 
committing themselves to a democratic, tolerant, and pluralistic Syria?

    Answer. The Syrian National Council has articulated its vision of a 
future Syria based on the rule of law and institutionalized politics 
within a free and civil society that respects minority rights. It has 
made clear that it will not accept any form of discrimination based on 
ethnicity, religion, or gender.
    It is difficult to give broad assurances about the thoughts and 
beliefs of groups in a country as diverse as Syria, particularly when 
freedom of expression and speech has been denied for decades. However, 
from our interactions with the other segments of the internal Syrian 
opposition, it is clear that the leadership has a vision of a country 
where people are treated with dignity and the country is governed by 
the rule of law. Despite the regime's efforts to sow seeds of 
sectarianism, we have observed an opposition that is welcoming of all 
segments of society committed to that vision. Many of the local 
grassroots groups such as the Local Coordination Committees (LCCs) have 
released statements advocating for the unity of the Syrian people, not 
the division. The LCCs, for example, state their political vision as 
``aiming toward a transition into a pluralist democracy, based on 
freedom for the public as well as equal political and legal rights 
among Syrians.'' In addition, our most trusted contacts explain to us 
the structure, format, and leadership of several local revolutionary 
councils in which no one person or group maintains dominance over the 
other and decisions are made in an open forum. Admittedly, there are 
elements of the opposition that advocate violence and intolerance, but 
this is not a view held by the majority of the Syrian opposition.

    Question. You said in written testimony that you are taking 
concrete action on three lines--humanitarian relief, ratcheting up 
pressure, and preparing for a democratic transition. Can you describe 
in greater detail what concrete actions you are taking that are 
preparing Syria for a democratic transition? Are we supporting, with 
finances, equipment, or training, groups inside or outside of Syria? 
How are these efforts being coordinated with other international 
actors?

    Answer. We are supporting a political transition laid out by the 
Syrian National Council in connection with a roadmap set out by the 
Arab League. We have regular contacts with Syrian opposition figures. 
Sometimes we meet in coordination with other partners, such as at the 
Friends of the Syrian People (FOSP) meeting. We are coordinating these 
actions with our likeminded partners through the FOSP group, as well as 
through our engagement at the U.N. Security Council and other U.N. 
bodies.
    The United States is providing over $12 million in humanitarian 
assistance through the U.N. and other humanitarian organizations for 
emergency medical care in Syria and the delivery of clean water, food, 
blankets, heaters, winter clothing, and hygiene kits to Syrian 
civilians in need. We and our partners are exploring ways to get food, 
medicine, and other humanitarian assistance to those Syrians affected 
by violence via traditional humanitarian channels and other informal 
networks.
                                 ______
                                 

Responses of Assistant Secretary Jeffrey Feltman to Questions Submitted
                       by Senator James E. Risch

    Question. How confident are you that the Assad regime has 
maintained control of its WMD stockpiles? Should Assad determine his 
regime is falling, do you believe that he would use WMD on his own 
people? Under what conditions might Assad transfer WMD or WMD 
components to Hezbollah? What other proliferation risks do you 
anticipate if the Assad regime collapses?

    Answer. The United States and its allies are monitoring Syria's 
chemical weapons stockpile and we believe it remains under Syrian 
Government control. INR would be happy to provide further details and 
context in a classified briefing.

    Question. In testimony before the Senate Armed Services Committee, 
European Command Commander Admiral Stavridis testified that he thought 
U.S. assistance through the provision of weapons and communications 
equipment would help the opposition organize and help topple the Assad 
regime. Is the administration actively considering the sale of weapons 
and other military equipment to the Free Syrian Army? What countries 
are currently supplying weapons to the Syrian opposition?

    Answer. We have not seen our role to date as one of injecting arms 
and munitions into Syria or encouraging others to do so. As Secretary 
Clinton has said, ``There is every possibility of a civil war. Outside 
intervention would not prevent that--it would probably expedite it. As 
you try to play out every possible scenario, there are a lot of bad 
ones that we are trying to assess.''
    We have been very resistant to the idea of pouring fuel onto the 
fire ignited by the Assad regime. Rather, we have defined our role 
largely in terms of encouraging a peaceful transition by working to 
isolate this outlaw regime diplomatically, crimping its cash flow, and 
encouraging the opposition to unite around a platform of outreach to 
Syria's minorities and peaceful, orderly political transition. 
Moreover, we have built an international coalition dedicated to the 
same goals and methods, one that has been on display in the U.N. 
General Assembly and the recent Friends of the Syrian People 
conference.
    For now, we assess that a negotiated political solution is still 
possible and is the best way to end the bloodshed and achieve a 
peaceful transition to democracy, but as the Secretary recently said in 
London, ``There will be increasingly capable opposition forces. They 
will, from somewhere, somehow, find the means to defend themselves as 
well as begin offensive measures.''
    The intelligence community, in a classified setting, would be best 
positioned to provide a response on the provision of weapons to the 
Syrian opposition.

    Question. What types of conventional weapons, logistical support, 
intelligence, and economic assistance can we confirm the Russians are 
providing the Assad regime?

    Answer. We are concerned about the continuation of Russian support 
to the Syrian regime, including weapons sales. For example, according 
to Cypriot authorities in January 2012, 60 tons of Russian ammunition 
from state arms trader Rosoboroneksport stopped briefly in Cyprus 
before continuing on to Syria. The majority of Syrian weapons are 
Soviet or Russian origin and Russian officials have openly admitted 
continuing to implement arms sales contracts with Syria.
    We have voiced our concerns about Russian weapons sales to Syria 
repeatedly, both publicly and through diplomatic channels with senior 
Russian officials. Last August and most recently on March 7, Secretary 
Clinton publicly urged Russia to cease arms sales to Syria. We will 
continue to press Russia on any activities that contribute to the 
Syrian regime's violent crackdown or threaten regional stability.

    Question. Does Russia have a physical presence on the ground in 
Syria? If so, please describe that presence.

    Answer. Russia's physical presence in Syria includes an Embassy in 
Damascus, a Cultural Center in Damascus, and a consulate in Aleppo. 
Russia has yet to evacuate the officials staffing these locations, and 
these facilities remain operational. Moscow also maintains a naval 
supply and logistics support base in Tartus--its only military base 
outside the former Soviet space and only port on the Mediterranean 
Sea--which it has operated since 1971. Tartus, however, probably does 
not have a significant complement of Russian naval personnel at this 
time, and we believe that Russians working on oil-related projects have 
likely been evacuated.

    Question. Since Russia decided to be Assad's diplomatic cover and 
military enabler, what leverage does the administration have with 
Russia regarding the Syrian crisis? Is the administration ready and 
willing to use that leverage with Russia over its support of Assad's 
brutal crackdowns?

    Answer. The United States diplomatic engagement with Russia during 
the Syrian crisis has been intense and direct. In public and on the 
record, Secretary Clinton and Ambassador Rice have unequivocally voiced 
the United States strong support for the resolutions presented in the 
Security Council on Syria and sharply criticized the transfer of arms 
to the Assad regime. The administration has conveyed its deep concerns 
about Russia's approach to Syria at the highest levels, including in 
discussions with President Medvedev, Prime Minister (and President-
elect) Putin, and with Foreign Minister Lavrov.
    While this issue is clearly one where the United States and Russia 
have fundamental differences of opinion, we have found space, albeit 
limited, for cooperation with Russia on facilitating the visits to 
Syria of the United Nations/Arab League Special Envoy Kofi Annan and 
Under Secretary General Valerie Amos. We also note Foreign Minister 
Lavrov's March 10 visit to the Arab League meeting in Cairo, where he 
discussed the conditions that could enable a political solution to the 
crisis. The administration will continue its intense diplomatic 
engagement with Moscow with the aim of facilitating a just, peaceful, 
and sustainable political transition of power from the Assad regime in 
Syria.
                                 ______
                                 

       Responses of Ambassador Robert Ford to Questions Submitted
                       by Senator James E. Risch

    Question. As the crisis goes on, are the various minority groups 
and other opposition forces within Syria overcoming the trust-deficit 
that has inhibited their ability to join forces effectively, or are the 
differences hardening? What leads you to your conclusion?

    Answer. Rather than a lack of trust, it is the Assad regime's 
brutal tactics that are the primary reason internal opposition groups 
remain localized. Grassroots organizations cannot hold public meetings, 
Syrians cannot travel freely between towns, and members of the 
opposition do not advertize their affiliation for fear of arrest, 
torture, and execution by the Syrian regime's forces. Groups also 
operate in an environment of intimidation and perpetual fear that they 
could be infiltrated by a regime informant.
    Although the opposition may be limited by geography and Assad 
regime's campaign of violence, we see indications of a united vision 
and coordinated messages at the numerous peaceful protests that 
continue to occur on a daily basis. Signs and chants of ``One, one, 
one, the Syrian people are one'' are widespread. The Syrian National 
Council (SNC) also maintains connections to many of the grassroots 
organizations within Syria, and is working to strengthen these ties. 
The SNC has made clear that it will not accept any form of 
discrimination based on ethnicity, religion, or gender. We support the 
Syrian National Council's vision of a future Syria based on the rule of 
law and institutionalized politics within a free and civil society that 
respects minority rights and have urged them to continue their outreach 
to opposition groups inside Syria. Members of minority groups have been 
and continue to be involved in the protest movement across Syria, but 
the SNC needs to constantly find ways to reassure those groups that the 
future state will not discriminate against minorities.

    Question. What is your level of concern that foreign arms entering 
Syria will end up in the hands of al-Qaeda, or that the Syrian 
opposition will start colluding with al-Qaeda? Under what conditions 
would the latter occur?

    Answer. We are following this issue very closely as the unrest in 
Syria persists. We are concerned that terrorists will view the 
situation in Syria as fertile ground to establish safe haven and 
conduct operational and other planning. We see indications that al-
Qaeda in Iraq is extending its reach into Syria. We are closely 
monitoring whether terrorist elements may seek to insert themselves 
into elements of the Syrian opposition without their knowledge.
    We have been and will continue to engage closely with all of 
Syria's neighbors to raise awareness of multiple border security 
issues--weapons smuggling and terrorist transit being foremost among 
these. In addition, we will continue to engage with the Syrian 
opposition, and particularly the Syrian National Congress, to make 
certain that they are aware of the various threats, and communicating 
effectively across the opposition movement to warn of the dangers of 
cooperating with terrorists. The ability of terrorists to exploit the 
unrest in Syria will be hindered greatly by concerted and aggressive 
efforts by Syria's neighbors to secure borders.

    Question. Do you believe that U.S. interests in Syria are greater 
or lower than Libya?

    Answer. We believe that the Syrian people deserve the same 
opportunity to shape their future that the Tunisians, Egyptians, 
Libyans, and Yemenis now enjoy. The United States has an interest in 
assisting democratic transitions all across the Middle East and North 
Africa. We must support calls from within the region to strengthen each 
of the building blocks of stable, thriving societies: a responsive, 
accountable government; an energetic, effective economy; and a vibrant 
civil society.

    Question. Have current sanctions and other diplomatic efforts 
achieved their intended results? What demonstrable changes have they 
caused in the regime's behavior?

    Answer. U.S. sanctions, coupled with robust multilateral efforts, 
are effectively squeezing Assad's cash flow and their effects continue 
to grow. For example, in January 2012, the Syrian Oil Ministry 
announced that Western sanctions on Syrian oil exports had eliminated 
$2 billion in revenue since September 2011. Depriving the government of 
this revenue makes it more difficult to finance its campaign of 
repression. Furthermore, our designation of more than three dozen 
regime officials and enablers to date makes it clear to both Syrian 
Government officials and the Syrian business community alike that 
association with Assad's regime carries a personal cost. Although the 
core of the Assad regime has not abandoned him, the continued pressure 
has encouraged some defections, including the recent defections of the 
Syrian Deputy Petroleum Minister and four Brigadier Generals from the 
Syrian military. We have crafted U.S. sanctions to avoid harming the 
Syrian people to the maximum extent possible; however, the Assad 
regime's own economic mismanagement and corrupt practices have 
exacerbated the economic situation in Syria and squeezed the business 
community, a key regime constituency.
    It should be noted that economic relationships between the United 
States and Syria were limited before the current crisis. Had we acted 
alone, our actions would likely have had only a modest impact on the 
Syrian regime's ability to finance its campaign of violence. Our steady 
escalation of pressure against the Assad regime and its supporters has 
been coordinated and implemented in concert with our allies, including 
the EU, Switzerland, Canada, Japan, Australia, and Turkey. At the 
Friends of the Syrian People conference, participants committed to take 
steps to apply and enforce restrictions and sanctions on the regime and 
its supporters as a clear message to the Syrian regime that it cannot 
attack civilians with impunity. We will revisit these commitments at 
the next Friends of the Syrian People meeting.
                                 ______
                                 

Responses of Assistant Secretary Jeffrey Feltman and Ambassador Robert 
         Ford to Questions Submitted by Senator Jeanne Shaheen

    Question. Proliferation Concerns.--The Syrian regime's arsenal of 
both conventional and chemical weapons is a significant concern. 
According to a recent report, Syria probably has ``one of the largest 
[chemical weapons] programs in the world'' with ``multiple types of 
chemical agents,'' including chlorine and more modern nerve gasses. 
Senior U.S. officials have described a ``nightmare scenario'' if the 
regime suddenly falls apart and the stockpiles of chemical weapons are 
at play.
    The concern here is obviously proliferation and that Assad might 
actually use these against his own people. Do you feel that we have an 
accurate estimate of the number and location of chemical and other 
weapons held by the Syrian regime?

    Answer. The United States is closely monitoring Syria's 
proliferation-sensitive materials and facilities. We believe Syria's 
stockpiles of chemical weapons, ballistic missiles, man-portable air 
defense systems and other conventional weapons remain secure under 
Syrian Government control. We concur with the Intelligence Community's 
assessments of Syria's weapons stockpiles.

    Question. In your testimony, you stated that the United States has 
begun coordinating with allies in Europe and elsewhere about the threat 
posed by these weapons. Can you address the regional aspects of this 
threat?

    Answer. Should the Assad regime fall, or if domestic security 
deteriorates significantly, the safety and security of Syria's 
stockpile of chemical and conventional weapons and delivery systems may 
potentially come into question, with serious consequences for regional 
and international security. As the political violence in Syria 
continues unabated, the importance of ensuring the security of Syria's 
conventional and unconventional weapons and other sensitive materials 
remains critical. The U.S. Government is working to address these 
challenges in cooperation with countries in the region, our allies and 
other international partners.

    Question. How does the situation in Syria compare to our experience 
in Libya last year--both in terms of what we know and what steps we are 
taking to work with countries in the region?

    Answer. The situation in Syria is much more complicated than that 
in Libya, particularly with regard to chemical weapons and ballistic 
missiles. Unlike Libya, which has been in the process of destroying its 
chemical weapons stockpile, Syria is not a party to the Chemical 
Weapons Convention and maintains a highly active chemical weapons 
program with a stockpile composed of nerve agents and mustard gas. 
Syria also has an active ballistic missile program. In addition, like 
Libya, Syria maintains a significant stockpile of man-portable air 
defense systems. In the event of a political transition in Damascus, 
regional states will need to take a substantial role in ensuring the 
security and eventual elimination of these weapons. The U.S. Government 
is working to address these challenges in cooperation with our allies 
and regional partners.
                                 ______
                                 

 Response of Assistant Secretary Jeffrey Feltman to Question Submitted 
                      by Senator Christopher Coons

    Question. I have worked with Senator Collins and others to 
highlight the decisive action taken by the administration to develop a 
mass atrocity prevention strategy, including the issuance of a 
Presidential Study Directive (PSD-10) in August and subsequent creation 
of an Atrocity Prevention Board. What role, if any, does the 
administration's mass atrocity prevention strategy play in guiding the 
U.S. response to the ongoing violence in Syria? What is the 
administration's position on taking punitive action against Assad and 
members of his regime for war crimes and crimes against humanity?

    Answer. The prevention of further atrocities is at the forefront of 
our administration's Syria strategy. Presidential Study Directive-10 
was not completed prior to the outbreak of violence in Syria and the 
interagency Atrocities Prevention Board is currently forming its 
operating procedures and guidelines. Nonetheless, senior officials are 
considering atrocity prevention principles and examining how to apply 
these principles to the current crisis in Syria.
    Our immediate focus remains stopping the violence and brutality 
inflicted on the Syrian people by the regime and initiating a political 
transition, but we firmly believe that senior figures of the regime and 
those who join them in perpetrating this bloodshed must be held 
accountable for their crimes. Already we have placed sanctions on all 
the senior officials involved in the repression. As the transition in 
Syria proceeds, and as the U.N.'s Commission of Inquiry recognized, the 
Syrian people will need to have a leading voice in determining issues 
of accountability.
                                 ______
                                 

      Responses of Ambassador Robert Ford to Questions Submitted 
                      by Senator Christopher Coons

    Question. You have been extremely vocal and active in expressing 
support for the Syrian people over the Internet, especially via 
Facebook and Twitter. Please describe restrictions on Internet freedom 
in Syria and the extent to which Syrian citizens' online activity is 
monitored by the regime.

    Answer. Internet repression has long been a problem in Syria, and 
it has increased significantly since mass pro-democracy uprisings began 
last year. Individuals and groups cannot freely express their views via 
the Internet without risking their lives, or facing the prospect of 
arrest and punishment. The Syrian regime monitors Internet 
communications, including e-mail and chat rooms, and has interfered 
with and blocked Internet service in various cities. Security forces 
are often largely responsible for restricting Internet freedom, and the 
government also applies the media law, as well as general legal code, 
to regulate Internet use and prosecute users. Over the last year, we 
have also seen the emergence of organized cyber criminals who claim an 
allegiance to the Syrian Government and carry out attacks against 
activists online.
    In February 2011, after nearly 5 years, the government lifted bans 
on Facebook and YouTube. However, human rights observers reported the 
government continued to impede the flow of information on government 
violence out of the country, particularly YouTube images of protesters 
being beaten, arrested, and killed. In December 2011, the government 
banned the use or import of iPhones, which had been used by citizens to 
document and share evidence of violence surrounding the protests. 
According to various human rights groups, all of the country's Internet 
service providers regularly block access to a variety of Web sites. 
Observers estimate approximately 180 sites were blocked at one time or 
another in 2011, including the pro-reform site ``All4Syria.org'' and 
sites associated with Kurdish opposition groups, the Muslim 
Brotherhood, and the Syrian Muslim Brotherhood. The government monitors 
people logging into Facebook and sometimes arrests persons for their 
postings.
    Over the course of the last year, we saw a rise in Internet and 
mobile communications blackouts. In June 2011, the Department issued a 
statement in response to reports of a communications shutdown across 
much of Syria, condemning it as an effort to suppress the Syrian 
people's exercise of their rights to free expression, assembly, and 
association. Opposition members and technical experts report that such 
blackouts have continued on a regional basis, often occurring on 
Fridays and other key moments to coincide with the timing of 
antigovernment protests.
    Human rights activists report that the government often attempts to 
collect personally identifiable information of activists on the 
Internet in order to coerce or retaliate against them. Activists have 
reported that they were forced by Syrian authorities to turn over the 
passwords to their e-mail and social media accounts, exposing their 
communications as well as all of their contacts.
    Technical experts report cyber attacks of growing sophistication 
and frequency that target civil society, from a ``man-in-the-middle'' 
attack on Facebook in May 2011 that enabled surveillance of users to 
complex viruses designed to take over the computers of key journalists 
and activists. Pro-government cyber criminals such as the Syrian 
Electronic Army have claimed credit for defacing and dismantling 
activists' accounts and Web sites.
    The Department is committing its attention and resources to 
countering these efforts to repress Syrian citizens' rights online. 
Countering increasingly active Internet surveillance and censorship 
efforts requires a diverse portfolio of tools and training. State 
Department grants support more advanced countercensorship technologies, 
including circumvention tools in Arabic, as well as secure mobile 
communications and technologies to enable activists to post their own 
content online and protect against cyber attacks and surveillance. 
Circumvention tools that have received support from the State 
Department provide unfettered Internet access to tens of thousands of 
Syrians.


    Question. In November, I joined Senators Casey and Kirk in writing 
to Secretaries Clinton and Bryson about disturbing reports of the sale 
of U.S. technology to Syria that could be used for online monitoring 
and censorship by the regime. Do you have any update on these reports 
and subsequent investigations into the sale of this technology to Syria 
by U.S. companies?

    Answer. We are aware that the Department of Commerce's Office of 
Export Enforcement is conducting an investigation into this matter. On 
December 16, 2011, Commerce added one individual and one company in 
United Arab Emirates to the Bureau of Industry and Security Entity 
List. The two parties were added based on evidence that they purchased 
U.S.-origin Internet filtering devices and transshipped the devices to 
Syria. The same devices have been the subject of recent press reporting 
related to their potential use by the Syrian Government to block pro-
democracy Web sites and identify pro-democracy activists as part of 
Syria's brutal crackdown against the Syrian people. The Entity List 
contains a list of names of certain foreign persons--including 
businesses, research institutions, government and private 
organizations, and individuals that have been determined through an 
interagency review process to have engaged in activities contrary to 
U.S. national security and/or foreign policy interests. These persons 
are restricted from receiving items subject to U.S. jurisdiction. 
Further questions should be directed to the Department of Commerce.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
